Appendix A: 9th (Ninth) Circuit Court
Memorandum on 3/18/2019

Page 53

United States Court of Appeals, Ninth Circuit.
ALFRED LAM; PAULA LEIATO, Plaintiffs-Appellants,
v.
CITY AND COUNTY OF SAN FRANCISCO; et al„
Defendants-Appellees.
Nos. 16-15596. 16-16559, No. 1715208.
Submitted March 14, 2019L3.
Filed March 18, 2019.
Appeal from the United States District Court for the
Northern District of California; D.C. Nos. 4:10-cv-04641PJH, 4:08-cv-04702-PJH, Phyllis J. Hamilton, Chief
Judge, Presiding.
Before: WALLACE, FARRIS, and TROTT, Circuit Judges.
NOT FOR PUBLICATION
MEMORANDUM^
In these appeals, Alfred Lam and Paula Leiato appeal pro
se from the district court’s summary judgment in their action
alleging employment discrimination; from the district court's
award of costs to the defendants; and from the district
court's denial of their motion to reconsider a prior summary
judgment. We affirm in part and dismiss in part.
In Appeal No. 16-15596, Lam and Leaito appeal from
the district court's summary judgment. We have
jurisdiction under 28 U.S.C. § 1291. We review de
novo, Vasauez v. County of Los Angeles, 349 F.3d 634,
639 (9th Cir. 2003), and we affirm.

Page 54

The district court properly granted summary judgment
on Lam's and Leiato's discrimination claims because
Lam and Leiato failed to raise a genuine dispute of
material fact as to whether defendants took adverse
action against plaintiffs, and whether defendants had
legitimate, non-discriminatory motives for their
actions. Id. at 640-42 (providing framework for
analyzing discrimination claims). Lam and Leiato's
contentions that the district court ignored relevant
evidence or was biased against them are unsupported
by the record. See, e.g., Brown Baa Software v.
Symantec Coro., 960 F.2d 1465, 1474 (9th Cir.
1992) (district court's failure to refer to declaration and
exhibits in summary judgment order was harmless
where plaintiff failed to argue how consideration of
declaration would have changed result reached by
district court).
The district court properly concluded that Lam and
Leiato, as pro se litigants, lacked the authority to
represent a class. See C.E. Pope Equity Trust v. United
States. 818 F.2d 696. 697 (9th Cir. 1987) ("Although a
non-attorney may appear in propria persona in his own
behalf, that privilege is personal to him. ... He has no
authority to appear as an attorney for others than
himself."). To the extent Lam and Leiato contend that
reversal is required due to alleged ineffective
assistance of counsel, this contention is without
merit. See, e.g., Nicholson v. Rushen, 767 F.2d 1426,
1427 19th Cir. 1985) (plaintiff is a civil case has no right
to effective assistance of counsel). We reject Lam and
Leiato's remaining arguments as unsupported by the
record.
The district court did not abuse its discretion in awarding
costs to defendants because Lam and Leiato failed to
establish why the defendants were not entitled to
costs. See Save Our Valiev v. Sound Transit. 335 F.3d 932,

Page 55

944-45 n.12 (stating standard of review and burden of
proof).
In Appeal No. 16-16559, Lam and Leiato appeal the district
court's order denying their second motion to reconsider the
district court's costs award. We dismiss this appeal
because it was not timely filed. See Fed. R. App. Proc.
4(a)(1)(A), 26(a)(1); United States v. Sadler. 480 F.3d 932.
937 (9th Cir. 2007) (untimely civil appeals must be
dismissed for lack of jurisdiction).
In Appeal No. 17-15208, Lam and Leiato appeal the district
court's order denying their motion for relief under Federal
Rules of Civil Procedure 59(b), (e), 60(b), and 60(d)(3) as
"untimely and meritless". We have jurisdiction under 28
U.S.C. § 1291. We review for an abuse of
discretion. School Dist. No. 1J, Multnomah County. Or. v.
ACandS. Inc.. 5 F.3d 1255,1262 (9th Cir. 1993) (Rule 59(e)
and Rule 60(b)). We affirm.
The district court correctly exercised its discretion in
denying Lam and Leiato's motion. The district court
properly determined that all of the twenty-two alleged
questionable grounds for relief were untimely because their
motion was filed more than four years after the entry of
judgment.
APPEAL NOS. 16-15596 and 17-15208 AFFIRMED.
APPEAL NO. 16-16559 DISMISSED.
r**1 Lam and Leiato's request for oral argument is denied, because the panel
unanimously concludes this case is suitable for decision without oral
argument. See Fed. R. App. P. 34(a)(2).
LI This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Page 56

Appendix B: U.S. District Court’s Motion of
Summary Judgment and dismissed case on 3/7/2016

Page 57

United States District Court, N.D. California.
Case No. 10-cv-4641-PJH.
March 7, 2016.
ALFRED LAM, et al., Plaintiffs,
v.
THE CITY & COUNTY OF SAN FRANCISCO, et al.,
Defendants.
ORDER GRANTING MOTION FOR SUMMARY
JUDGMENT
PHYLLIS J. HAMILTON, District Judge.
Defendants' motion for summary judgment came on for
hearing before this court on January 13, 2016. Plaintiff
Alfred Lam appeared in pro per, and plaintiff Paula Leiato
appeared through counsel Albert Boasberg. Defendants
appeared through their counsel, Boris Reznikov. Having
read the papers filed in conjunction with the motion and
carefully considered the arguments and the relevant legal
authority, and good cause appearing, the court hereby
rules as follows.

BACKGROUND
This is the second suit brought by this group of plaintiffs for
alleged workplace discrimination. Plaintiffs Alfred Lam and
Paula Leiato ("plaintiffs") are employed by San Francisco's
Juvenile Probation Department ("JPD"), and bring suit
against the City and County of San Francisco ("CCSF") and
various individual defendantsUl(referred to collectively as
"defendants") for alleged violations of section 1983, section
1981, Title VII, and the California Fair Employment and
Housing Act ("FEHA"). Plaintiffs identify as Asian Pacific
Americans ("APAs"), and argue that they were

Page 58

discriminated against, especially as compared to African
American employees.
In October 2008, the same plaintiffs^ filed a case very
similar to the one that is now before the court. See Lam et
al. v. City and County of San Francisco, C 08-4702 PJH
("Lam I"). In Lam I, the plaintiffs filed suit against CCSF and
ten individual employees (many of whom are also
defendants in this case) for alleged violations of section
1983, section 1981, Title VII, and FEHA. Plaintiffs'
allegations centered around alleged racial discrimination,
harassment, and retaliation by their superiors at JPD.
Some of the Lam I claims were dismissed on a Rule
12(b)(6) motion, and summary judgment was granted as to
the remaining claims in April 2012.
While Lam I was pending, the plaintiffs filed the present suit
("Lam II"). Specifically, in October 2010, plaintiffs filed suit
alleging the same causes of action as in Lam I (alleged
violations of §§ 1981 and 1983, Title VII, and FEHA)
against CCSF and individual employees. While the causes
of action are nearly identical as those in Lam I, the plaintiffs
framed Lam II as focused on discrimination in the
promotion of employees to "acting supervisor" positions, as
opposed to Lam I's focus on discrimination with respect to
disciplinary decisions. See Dkt. 61 at 17 (hearing transcript
where plaintiffs' counsel stated that 'We don't want to re­
litigate an issue. We don't want a second bite at the apple.
What we want to do is to be able to present the evidence
that we have concerning promotional manipulation for the
purposes of denying promotions.").
In June 2011, eight months after the filing of Lam II, the
plaintiffs sought to file a supplemental complaint in Lam I,
claiming that supplementation would capture the
allegations made by Lam II, such that Lam II could be
dismissed if the motion to supplement was granted. The
court denied the motion to supplement, finding that the

Page 59

plaintiffs had not been diligent in seeking leave to
supplement, and that supplementation would unduly delay
the close of discovery in Lam I. The plaintiffs then sought
to consolidate Lam I and Lam II only two days before
discovery was set to close in Lam I. The court denied the
motion to consolidate, viewing the consolidation attempt as
"as a means of achieving what plaintiffs could not achieve
by way of their motion to supplement." Lam I, Dkt. 182.
As mentioned above, summary judgment was ultimately
granted in Lam I, and after that, defendants sought to
dismiss this case based on the res judicata effect of Lam I.
The court granted the motion only in part, finding that any
allegations that preceded the filing of the last operative
complaint in Lam I (February 22, 2010) were barred, as
they either were raised or could have been raised in Lam I.
The court further found that one post-February 2010
allegation (a denial of a request for leave made by plaintiff
Leiato in July 2010) was also litigated in Lam I, and thus
was barred.
Accordingly, the remaining allegations in this case are
limited to alleged conduct that occurred after February 22,
2010, minus the July 2010 denial of plaintiff Leiato's
request for leave. Looking only at that time period, the
operative third amended complaint ("TAC") alleges the
following with respect to plaintiff Lam:
(1) In or around March 2010, plaintiff
Lam alleges that he "requested
vacation time in a timely manner,"
but the request was "ignored and
delayed without justification" until it
was "finally approved in July 2011,
just several days before the planned
vacation" (TAC, 39),
(2) In or around March 2010, plaintiff
Lam alleges that he was "denied

Page 60

promotion or
opportunity
for
promotion" (TAC, U 40),
(3) On or about July 27, 2010,
plaintiff Lam alleges that he was
given "a 'poor' or 'negative' work
appraisal on his annual performance
evaluation
without
justification"
(TAC, If 41),
(4) On or about September 29, 2010,
plaintiff Lam alleges that he was
given a "written notice of 'inattention
to duty' without merit or justification"
(TAC, H 42),
(5) On or about November 9, 2010,
plaintiff Lam alleges that he left his
workstation due to the "strong odor
of sewage," yet was "issued a written
reprimand" for "alleged tardiness
that day in reporting to his assigned
post" (TAC, H 43),
(6) On or around January 2011,
plaintiff Lam alleges that he
"submitted a medical advisory to
JPD recommending modified duty
due to persistent eye irritation," yet
denied
"arbitrarily
was
accommodation," and was instead
"refused work" and "sent home
without cause or justification"
between January 15, 2011 and
January 23, 2011" (TAC, If 44-45),
(7) On or about January 27, 2011,
plaintiff Lam alleges that he was
"denied participation in a scheduled
annual shift bidding process without
justification or cause (TAC, 1J 46),
(8) On or about May 14, 2011,
plaintiff Lam alleges that he was

Page 61

"given a written reprimand and
placed on 'sick leave restriction1
without justification and merit" (TAC,
H 47), and
(9) On or around December 15,
2011, plaintiff Lam alleges that he
expressed interest in an acting
supervisor position, but did not
receive one. TAC, pp 52. Plaintiff
generally
alleges
that
also
"throughout his career at the JPD,
Lam repeatedly and continually
asked to be assigned to acting
supervisory positions," but "never
received such an assignment or
appointment." TAC, 48.
With respect to plaintiff Leiato, the TAC makes the
following allegations post February 22, 2010 (excepting
the July 2010 allegations mentioned above):
(1) On or around March 2010,
plaintiff Leiato alleges that she was
"denied promotion despite nearly
fifteen years of experience" (TAC,
67),
(2) On or around November 2010,
plaintiff Leiato alleges that she
"submitted
competent
medical
certification to request leave for a
doctor's appointment," but was
"arbitrarily denied leave and pay and
thereafter charged with 'misuse of
sick time’ and being AWOL for her
November
24,
2010
medical
appointment that she notified her
superiors of (TAC, 70),

Page 62

(3) During some unspecified time
period, plaintiff Leiato alleges that
she has "routinely been assigned to
work with two on-call staff," which
"makes it harder to perform her job
responsibilities, prolonging the time
it takes and putting her in danger"
(TAC, H 71),
(4) Throughout her career, including
in March 2010, September 2011,
October 2011, December 2011,
January 2012, and February 2012,
plaintiff Leiato alleges that she
"continually asked to be assigned to
acting supervisory positions," but
"never received such an assignment
or appointment" (TAC,
72-80).
Although it does not appear in the TAC, defendants' motion
references an additional allegation by Leiato — namely,
that in March 2011, she "served a three-day suspension for
abandoning her post on July 20, 2010." Dkt. 178 at 12.
Because this allegation arises out of the July 2010 denial
of leave, and because allegations relating to the July 2010
denial of leave are barred from this action under res
judicata principles, the court finds that any allegations
relating to the March 2011 suspension are similarly barred
under principles of res judicata. Moreover, as mentioned
above, no allegations regarding a March 2011 suspension
appear in the operative complaint.
Based on the above allegations, plaintiffs assert six causes
of action: (1) violation of the equal protection clause of the
Fourteenth Amendment under 42 U.S.C. § 1983, against
defendant CCSF, (2) violation of 42 U.S.C. § 1981 based
on disparate treatment due to race and national origin,
asserted against all defendants, (3) violation of Title VII
based on disparate treatment due to race and national

Page 63

origin, asserted against CCSF, (4) violation of Title VII
based on harassment and a hostile work environment due
to race and national origin, asserted against CCSF, (5)
violation of Title VII based on retaliation, asserted against
CCSF, and (6) violation of Cal. Gov't Code § 12940 based
on failure to prevent unlawful discrimination and
harassment, asserted against CCSF.
Defendants now move for summary judgment as to all
claims.

DISCUSSION
A. Legal Standard
A party may move for summary judgment on a "claim or
defense" or "part of... a claim or defense." Fed. R. Civ. P.
56(a). Summary judgment is appropriate when there is no
genuine dispute as to any material fact and the moving
party is entitled to judgment as a matter of law. Id.
A party seeking summary judgment bears the initial burden
of informing the court of the basis for its motion, and of
identifying those portions of the pleadings and discovery
responses that demonstrate the absence of a genuine
issue of material fact. Celotex Coro, v. Catrett, 477 U.S.
317, 323 (1986). Material facts are those that might affect
the outcome of the case. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). A dispute as to a material fact is
"genuine" if there is sufficient evidence for a reasonable
jury to return a verdict for the nonmoving party. Id.
Where the moving party will have the burden of proof at
trial, it must affirmatively demonstrate that no reasonable
trier of fact could find other than for the moving
party. Soremekun v. Thrifty Pavless. Inc., 509 F.3d 978,
984 (9th Cir. 20071. On an issue where the nonmoving

Page 64

party will bear the burden of proof at trial, the moving party
may carry its initial burden of production by submitting
admissible "evidence negating an essential element of the
nonmoving party's case," or by showing, "after suitable
discovery," that the "nonmoving party does not have
enough evidence of an essential element of its claim or
defense to carry its ultimate burden of persuasion at
trial." Nissan Fire & Marine Ins. Co.. Ltd, v. Fritz Cos., Inc.,
210 F.3d 1099. 1105-06 (9th Cir. 2000): see also Celotex.
477 U.S. at 324-25 (moving party can prevail merely by
pointing out to the district court that there is an absence of
evidence to support the nonmoving party's case).
When the moving party has carried its burden, the
nonmoving party must respond with specific facts,
supported by admissible evidence, showing a genuine
issue for trial. Fed. R. Civ. P. 56(c), (e). But allegedly
disputed facts must be material — the existence of only
"some alleged factual dispute between the parties will not
defeat an otherwise properly supported motion for
summary judgment." Anderson. 477 U.S. at 247-48.
When deciding a summary judgment motion, a court must
view the evidence in the light most favorable to the
nonmoving party and draw all justifiable inferences in its
favor. Id. at 255; Hunt v. City of Los Angeles, 638 F.3d 703,
709 (9th Cir. 2011). B. Legal Analysis
As an initial matter, defendants argue that plaintiffs’ failure
to meet the administrative exhaustion requirement
warrants summary judgment as to a number of their claims.
Defendants point to plaintiff Lam's October 2010 charge, in
which he mentioned only the alleged denial of a promotion,
and not any alleged retaliation or harassment. Defendants
also point to plaintiff Leiato's 2010 charge in which she
alleged discrimination and retaliation based on an incident
occurring in 2007. However, defendants fail to
acknowledge a key aspect of this case — the fact that Lam

Page 65

I was already pending at the time of all of the alleged
conduct, and that plaintiffs originally sought to supplement
the Lam I complaint with the allegations that are now at
issue in this case. In Lam I, the court denied the motion to
supplement as untimely, but it appears undisputed that, if
the motion had been timely brought, plaintiffs would have
been permitted to supplement the Lam I complaint without
needing to file a new administrative charge. When the
motion to supplement was denied, it was unclear whether
plaintiffs were then required to file a new administrative
charge. While exhaustion may indeed have been required,
defendants have not provided authority for imposing such
a requirement in a situation such as this. And, as the party
seeking summary judgment, it is defendants' burden to
make such a showing. Having failed to do so, the court is
left with no basis to impose an exhaustion requirement for
conduct that occurred during the pendency of Lam I. The
court will instead address plaintiffs' claims on the merits.
The bulk of the parties’ briefs relates to the third cause of
action, for disparate treatment based on race and national
origin under Title VII. To establish a prima facie case of
disparate treatment discrimination under Title VII, plaintiff
must show (1) that he/she belongs to a protected class, (2)
was performing according to his/her employer's legitimate
expectations, (3) suffered an adverse employment action,
and (4) that other employees with qualifications similar to
his/her own were treated more favorably, or that the
employer had a discriminatory motive. See McDonnell
Douglas Corp. v. Green. 411 U.S. 792. 802 (1973); Guz v.
Bechtel Nat'l. Inc.. 24 Cal. 4th 317 (2000). This is only a
minimal evidentiary burden, and a plaintiff need only give
rise to an inference of unlawful discrimination. See St.
Mary's Honor Center v. Hicks. 509 U.S. 502 (1993).
Second, if the employee produces sufficient evidence to
establish a prima facie case, the burden shifts to the
employer-defendant to articulate a "legitimate nondiscriminatory reason" for the adverse employment action.

Page 66

See Lyons v. England, 307 F.3d 1092.1112 (9th Cir. 2002).
Finally, if the employer is able to articulate a legitimate,
non-discriminatory reason for its action, this dispels the
inference of discrimination raised by plaintiffs prima facie
case, leaving the employee with the ultimate burden of
persuading the trier of fact that defendant intentionally
discriminated against the employee. A plaintiff employee
may satisfy this burden by proving that the legitimate
reasons offered by defendant were factually untrue,
thereby creating an inference that those reasons were
merely a pretext for discrimination. See Reeves v.
Sanderson Plumbing Products. Inc.. 530 U.S. 133, 142
(2000).
The primary allegation of plaintiff Lam is that he was
"denied promotion or opportunity for promotion, likely due
to his race, national origin, and previous complaints against
CCSF and JPD." TAC, 40. Plaintiff Lam alleges that this
denial of promotion occurred in March 2010, though he
separately alleges that he was also denied appointment to
"acting" supervisory positions throughout his career at JPD.
See, e.g., TAC,
48-52. Plaintiff Lam alleges that
"[assignment to these 'acting' positions is used by
defendants as a de-facto requirement to receive a full time,
permanent supervisory position." Id., 48. However, most
of plaintiff Lam's allegations regarding an acting position
arise out of conduct that occurred before February 2010,
and thus are barred by res judicata. The only post-February
2010 allegation is that "[o]n or around December 15, 2011,
Lam informed supervisor Alardo that he was interested in
an 8318 or 8322 acting position," but "never received such
an assignment or appointment, instead plaintiffs non-APA
counterparts received the additional pay and opportunities
for promotion requested by plaintiff." Id., 52.
In its motion, defendant CCSF argues that the March 2010
promotions were made based on responses to a job
announcement that was posted in September 2009. Dkt.

Page 67

178 at 3. Applicants were invited to take a job-related
examination, and those whose scores made them eligible
were placed on a list from which promotions were made.
Defendant CCSF emphasizes that plaintiff Lam did not
apply for this set of promotions, and was thus ineligible.
In his opposition, plaintiff Lam appears not to challenge the
fact that he did not apply for a promotion, but he argues
that "it was generally known throughout the Department
that Lam and Leiato did inquire several times about being
considered for any promotions," and that "neither plaintiff
ever was made apprised of the process and no one was
willing to guide them through whatever corporate hoops'
the plaintiffs had to jump through to be considered for
promotion." Dkt. 182 at 8.
Even if plaintiff Lam is correct that his supervisors did not
help him apply for a promotion, the fact remains that he did
not apply, and thus was ineligible for a promotion in March
2010. This fact alone precludes plaintiff Lam from
establishing a prima facie case of discrimination as to the
March 2010 promotion. See, e.g., Ratti v. City and County
of San Francisco, 1992 WL 281386 (N.D. Cal. 1992)
("[Ajpplication to the positon is a necessary element of
raising a claim for discrimination by disparate treatment.").
For that reason, plaintiff Lam has not shown that he
suffered an adverse action by not receiving a promotion in
March 2010. Moreover, plaintiff Lam has not shown that
defendant acted with a discriminatory motive, or that other
similarly situated employees were treated more favorably.
For those reasons, the court finds that any alleged denial
of promotion in March 2010 is not actionable as part of
plaintiff Lam's Title VII discrimination claim.
However, aside from the alleged denial of promotion in
March 2010, plaintiff Lam also alleges that he was denied
an acting supervisory position in December 2011. There is
no evidence that acting supervisory positions were subject

Page 68

to the same application and examination process as were
permanent promotions, so the fact that plaintiff Lam did not
formally apply for an acting supervisory position is not
relevant. CCSF argues that Lam "never asked Director
Powell for an appointment," but Lam does allege that he
asked his supervisor (Alardo) for an appointment, and
given the apparent lack of any formal procedure for
requesting acting supervisory appointments, the court has
no basis to draw a significant distinction between Lam
asking his direct supervisor and asking the JPD director. In
the absence of any other evidence regarding the procedure
for receiving an acting supervisory appointment, the court
finds that plaintiff Lam has raised at least a triable issue as
to whether he suffered an adverse action when he was
denied an appointment to an acting supervisory position.
However, in order to establish a prima facie case of
discrimination, plaintiff Lam must also present evidence
that other employees with qualifications similar to his own
were treated more favorably, or that the employer had a
discriminatory motive. In the complaint, plaintiff Lam does
allege that plaintiffs "non-APA counterparts received the
additional pay and opportunities for promotion requested
by plaintiff," but at this stage of the case, more than mere
allegations are required. Plaintiff Lam must provide
evidence showing that similarly situated non-APA
employees were in fact treated more favorably.
In his opposition brief, plaintiff Lam provides more specifics
than he did in the complaint, arguing that "[i]n June 2013,
at least ten (10) of'permanent position' of counselor #8320
were appointed or promoted, the majority of which were
African Americans," and that "[i]n December 2014, four (4)
of the only 'acting supervisors’ or 'special assignment
positions' all African Americans . . . were promoted to
'permanent supervisor position."1 Dkt. 182 at 3. However,
these allegations relate only to the promotion to permanent
positions, not to the appointment to acting positions. Thus,

Page 69

even if these allegations were supported with evidence,
they would not be relevant to plaintiff Lam's claim that the
failure to appoint him to an acting position constituted
discrimination.
Not only does plaintiff Lam fail to provide evidence of nonAPAs being appointed to acting positions, but defendant
CCSF actually presents evidence that two of the
employees appointed to acting positions during the
relevant time period were in fact Asian American (Dennis
Woo and Scott Kato). See Dkt. 187-1, Ex. C at 238:11-19,
247:11-13; see also Dkt. 178-5, % 25.
Based on plaintiff's lack of evidence that defendant CCSF
acted with a discriminatory motive in failing to appoint him
to an acting supervisory position or other evidence that
similarly situated employees were treated more favorably,
and based on CCSF's evidence that two Asian-American
employees were appointed to acting positions, the court
finds that plaintiff Lam has not established a prima facie
case of discrimination as to the failure to appoint him to an
acting supervisory position in December 2011.
However, even if plaintiff Lam were able to establish a
prima facie case, defendant CCSF has presented a
legitimate, non-discriminatory reason for any alleged
adverse action — namely, that more qualified candidates
would have been appointed over plaintiff Lam. See Dkt.
178-5,
24-26. The JPD director stated in a declaration
that, even if plaintiff Lam had asked her for an appointment
to an acting position, she would not have appointed him
because of "performance issues" such as his "propensity
to agitate the youth detainees, for example, by having
inappropriate conversations with them," the fact that he "did
not have the respect of his peers," the fact that he
"demonstrated poor judgment with respect to decisions that
had safety implications," and that he "repeatedly failed to
adhere to department protocols." Id., 26.

Page 70

In the opposition brief, plaintiff Lam responds by arguing
that his "performance was very good and he exhibited
qualities and work ethics that many other similarly situated
employees did not exhibit." Dkt. 182 at 11. Plaintiff Lam
further argues that "CCSF's 'blanket' statement that there
were more qualified candidates is quite nebulous because
they fail to indicate whom is more qualified." Id.
The court agrees that, if CCSF had merely stated that there
were more qualified candidates, that would be too
"nebulous" to constitute a legitimate, non-discriminatory
reason. However, CCSF provided a declaration setting
forth specific performance issues, and plaintiff Lam does
not provide evidence showing that the stated performance
issues were not factually accurate, or that they were offered
as a pretext for discrimination.
For all of the above reasons, the court finds that any alleged
denial of appointment of plaintiff Lam to an acting
supervisory positon in December 2011 is not actionable as
part of plaintiff Lam's Title VII discrimination claim.
The second adverse action alleged by plaintiff Lam is that,
in March 2010, he "requested vacation time in a timely
manner," but the request was "ignored and delayed without
justification." TAC, 39. While plaintiff Lam admits that the
request was "finally approved in July 2011," he argues that
the approval occurred just a few days before his planned
vacation, resulting in "unnecessary financial burden and
changes of itinerary with family members." Id.
Defendant CCSF argues that, because plaintiff Lam's
vacation request was ultimately approved, it cannot
constitute an "adverse action." Defendant argues that an
adverse action must be a "materially adverse change in
terms or conditions of employment because of an
employer's actions," and "must be more than a mere
inconvenience." Dkt. 178 at 15 (citing Nguyen v. Superior

Page 71

Court, 2015 WL 3322088 (N.D. Cal. Jan. 23, 2015))
(emphasis added by defendant). Defendant CCSF argues
that any impact on plaintiff Lam was personal, not
professional, as shown by his own allegations in the TAC.
In his opposition, plaintiff Lam concedes that his request
was ultimately approved, but argues that the delay caused
"aggravation and stress" to Lam, and that it "likely affected
Lam's position and standing as an employee" and that Lam
was "probably then exposed to very negative light
surrounding his employment situation which only made
Lam to be left out of other benefits of employment like
promotions, overtime opportunities, better work site
choices, etc." Dkt. 182 at 9.
The court finds that plaintiff Lam has not presented
sufficient evidence that the delayed approval of his
vacation request affected his employment, as opposed to
affecting him as an individual. Plaintiffs opposition relies on
speculation that the delay "likely affected" his standing as
an employee. And to the extent that plaintiff Lam alleges
that he was "left out of other benefits of employment like
promotions, overtime opportunities, better work site
choices, etc.," those alleged adverse actions may be
independently actionable, but they do not suffice to show
that the delayed vacation approval was itself an adverse
action.
Moreover, the court also finds that plaintiff Lam has not
presented sufficient evidence to create a triable issue of
fact as to whether the delayed approval of his vacation
request was based on defendant's discriminatory motive,
or evidence that other similarly situated employees were
treated more favorably. Plaintiff Lam does not allege (let
alone provide evidence) that any other employee's
vacation request was approved despite an outstanding
training requirement, nor does he provide evidence that the

Page 72

individual(s) responsible for delaying his vacation request
were motivated by an intent to discriminate.
However, even if plaintiff Lam were able to establish a
prima facie case of discrimination, defendant CCSF has
presented evidence of a legitimate non-discriminatory
reason for the alleged adverse action. Specifically, CCSF
argues that it had a policy requiring employees to complete
all required training before any vacation request could be
approved, and at the time of plaintiff Lam's vacation
request, he had just bid into an assignment in the
Admissions Office, which required additional training. Dkt.
178-5, MI 4-8.
This evidence of CCSF's training policy shifts the burden
back to plaintiff Lam to show that the "legitimate reasons
offered by defendant were factually untrue, thereby
creating an inference that those reasons were merely a
pretext for discrimination." Plaintiff Lam has not presented
any such evidence. While he does argue that his vacation
request was used "as a bargaining chip or tool to make Lam
better conform to [defendants'] corporate culture," he does
not argue that the policy evidence is factually untrue, nor
does he present any other evidence showing that the
stated reason was pretextual.
For all of the above reasons, the court finds that the March
2010 delayed vacation approval is not actionable as part of
plaintiff Lam's Title VII discrimination claim.
The third adverse action alleged by plaintiff Lam is his July
2010 performance review, which he describes as "poor"
and "negative." TAC, 41. Along with its motion, defendant
CCSF submitted a copy of the review itself, which shows
that plaintiff Lam was graded on a point scale of 1 to 9 —
with 1 to 3 meaning "did not meet expectations," 4 to 6
meaning "met expectations," and 7 to 9 meaning
"exceeded expectations." See Dkt. 178-5, Ex. 4. The

Page 73

review shows that plaintiff received a "met expectations"
rating of 4. Id.
Defendant CCSF argues that the review was not actually
negative, and points to plaintiff Lam's own deposition
testimony stating that the review was "okay." Dkt. 178-1,
Ex. A at 147:7-12. CCSF further argues that, even if the
review were objectively negative, it would not constitute an
adverse action because negative job reviews are not
considered adverse actions unless there are immediate
consequences to the terms and conditions of one's
employment.
As a general matter, the court finds that defendant
overreaches when it argues that an average (or slightly
below average) performance review cannot constitute an
adverse action. Even though plaintiff Lam's performance
review was not wholly negative, it still could constitute an
adverse action if it were undeservedly low. Lam alleges that
his work performance was actually "better than
satisfactory," and if he had presented evidence to support
that assertion, he could have created a triable issue of fact
as to whether the review was an adverse action. However,
plaintiff Lam has not presented such evidence, and the
court thus finds no triable issue of fact on that issue.
Moreover, even putting aside the adverse action issue,
plaintiff has also failed to raise a triable issue regarding
another element of his prima facie case — whether other
employees with qualifications and work performance
similar to his own were treated more favorably, or that the
employer had a discriminatory motive. While plaintiff Lam
asserts that "many employees out of Lam's protected class
received better performance evaluations for doing much
less work in both quantity and quality," he does not provide
evidence to support that assertion. Accordingly, the court
finds that plaintiff Lam has failed to adequately establish a

Page 74

prima facie case of discrimination as to the July 2010
performance review.
The fourth adverse action alleged by plaintiff Lam is the
"inattention to duty" notice issued in September 2010. The
complaint contains very few facts regarding this incident,
alleging only that "[o]n or about September 29, 2010,
CCSF/JPD employees Lewis and Powell issued Lam a
written notice of inattention to duty' without merit or
justification." TAC, 42.
In its motion, defendant CCSF argues that "there are no
Department records indicating that Lam received any type
of notice on or about this date for this reason." Dkt. 178 at
6. CCSF also explains that JPD uses three types of notices
to manage employee performance: (1) letters of
counseling, (2) records of discussion, and (3)
admonishments or written reprimands. According to CCSF,
only the third type of notice is considered disciplinary, as
the first two are "written reminders" that are "aimed at
improving performance," and records of those two types of
notices are generally not maintained.
In his opposition brief, plaintiff Lam notes the lack of
records, and argues that CCSF either "has very poor record
keeping procedures or CCSF intentionally destroyed the
evidence to make Lam's case less significant." Dkt. 182 at
9-10. Plaintiff Lam further suggests that "the latter is more
likely where the document was destroyed along with all
references to it in correspondence and emails." Id. at 10.
However, plaintiff Lam provides no support for his
suggestion that defendant CCSF destroyed relevant
evidence, nor does he provide testimony from any other
employee who witnessed the alleged incident. In fact, even
plaintiff Lam's own recollection of the event appears to be
hazy. In his deposition, he was asked "Do you recall what
this allegation is about?" and answered "I'm not sure. It was

Page 75

very minor. There is no basis to that." Dkt. 178-1, Ex. A at
177:11-13.
Based on the lack of clear allegations — let alone evidence
— relating to the alleged "inattention to duty" notice issued
in September 2010, the court finds that plaintiff Lam cannot
establish a prima facie case of discrimination as to this
incident. Because there is no evidence, the court cannot
find a triable issue as to whether any notice constituted an
adverse action, nor can the court find a triable issue as to
any discriminatory motive or evidence that other similarly
situated employees were treated more favorably.
The fifth adverse action alleged by plaintiff Lam is a
November 2010 written notice for leaving his post. In the
complaint, plaintiff Lam alleges that he "smelled a strong
odor of sewage" that was "so foul that some CCSF
employees even refused to report to their posts or
requested to leave early in order to avoid exposure to toxic
fumes." TAC, 43. Plaintiff Lam alleges that he "made a
complaint to his union and asked the union official to report
the condition to CAL-OSHA." Id. Lam then alleges that he
was "issued a written reprimand" for "alleged tardiness that
day in reporting to his assigned post." Id. However, Lam
maintains that "he was not tardy to his post," and further
alleges that "several non-APA employees who were tardy
or left early that day did not suffer any negative
consequences, including Thomasson, Bill, Smith, Sullivan,
Burns, and Nelson." Id.
Defendant CCSF makes a number of arguments in
response. First, it suggests that the written notice was not
actually an adverse action, because it "is not disciplinary in
nature" and carries "no tangible consequences." However,
the court is unconvinced by this argument. The fact that
CCSF creates a written record of the notice (even if it was
a non-disciplinary "record of discussion" rather than a
disciplinary "reprimand") suggests that there could be

Page 76

some consequences — otherwise there would be no
reason for CCSF to document the discussion.
However, plaintiff Lam does fail to establish a different
element of a prima facie discrimination case — namely,
whether defendant acted with a discriminatory motive, or
evidence that other similarly situated employees were
treated more favorably. While plaintiff Lam does provide
names of employees who were allegedly treated more
favorably, more than mere names are required at this point
in the case. In order to avoid summary judgment, plaintiff
Lam must provide evidence that other employees were
treated more favorably — for instance, testimony from
other employees supporting Lam’s allegations. Because no
such evidence has been provided, the court finds that
plaintiff Lam has failed to establish a prima facie case of
discrimination as to the November 2010 written notice.
Plaintiffs do submit a chart purporting to show "steps of
progressive disciplinary action taken by SFJPD." See Dkt.
185, Ex. 4. The chart categorizes various employees by
race, and then lists the alleged conduct that they
participated in and the disciplinary action that they
received. While this chart demonstrates that plaintiffs are
attempting to meet their burden to show that APAs were
disciplined more harshly than their non-APA counterparts,
it falls short in a number of ways. First, and most
importantly, the chart does not allow for an apples-toapples comparison of similarly situated employees.
Instead, the chart simply lists 97 incidents of disciplinary
action, without any attempt to show that employees who
engaged in similar conduct were disciplined differently. The
second, related shortcoming of the chart is that it does not
tie the listed incidents to the alleged adverse actions that
plaintiffs suffered. In other words, for this chart to meet
plaintiffs' evidentiary burden, it would need to highlight
incidents where non-APA employees engaged in the same
conduct as did plaintiffs, but were disciplined less harshly.

Page 77

Third and finally, the chart contains no references to
underlying evidence (such as disciplinary records and/or
employee testimony), nor was the chart attached to a
declaration of a person attesting to have personal
knowledge of the matters described. Overall, the court finds
that these deficiencies prevent the chart from serving as
the type of evidence that would meet plaintiffs' burden as
to the fourth prong of a prima facie discrimination case for
this and any other alleged adverse action.
Even if plaintiff Lam were able to establish a prima facie
case of discrimination based on the November 2010 written
notice, defendant CCSF has presented a legitimate, nondiscriminatory reason for the notice. Specifically, CCSF
argues that JPD has a policy requiring employees to arrive
to work on time, and to promptly report to their assigned
work post and relieve the employee working on that
assignment before them. If an employee does not promptly
relieve the previous employee, that previous employee
may be required to incur overtime while he waits. Indeed,
CCSF presents evidence that one of its employees
incurred overtime on November 9, 2010, with the reason
for the overtime requested listed as "Lam relieved late."
See Dkt. 178-5, H 13.
Plaintiff Lam does not challenge the truth of CCSF's
proffered legitimate non-discriminatory reason, but instead
argues that "[w]hen it comes to budgets and overtime
provisioning, these types of 'reminders' are far from
friendly," and that "[t]he monetary aspect alone is sufficient
to make CCSF's action against Lam an adverse
employment action." Dkt. 182 at 10. Lam further argues
that "[m]anagement looks poorly upon employees who
create or abuse overtime because it makes their 'bottom
line' less impressive." Id.
While plaintiff Lam may take issue with CCSF's focus on
the "bottom line," his arguments actually support the

Page 78

proposition that CCSF was motivated by financial reasons,
rather than discriminatory reasons. For that reason, plaintiff
Lam has not presented evidence that would create an
inference that CCSF's stated reasons for the November
2010 written notice were "merely a pretext for
discrimination," and thus, the court finds that the incident is
not actionable as part of plaintiff Lam's Title VII
discrimination claim.
The sixth adverse action alleged by plaintiff Lam relates to
his workers' compensation claim filed in January 2011
based on the irritation of his eye. In the complaint, he
alleges that he "submitted a valid medical advisory" that
recommended "modified duty due to persistent eye
irritation." TAC, 44. Specifically, plaintiff Lam alleges that
he needed accommodation with respect to only one out of
20 available posts — the central control, which entailed
"prolonged exposure to flashing security panel lights and
multiple monitors." Id. However, Lam alleges that he was
"arbitrarily denied accommodation," even as "other nonAPA employees have been accommodated even for light
duty." Id. Lam further alleges that he was "refused work and
sent home without cause or justification" between January
15, 2011 and January 23, 2011, and that those absences
were taken out of his sick days. Id., U 45.
In its motion, defendant CCSF argues that there was no
adverse action, because placing Lam on a nine-day
medical leave did not materially change the terms and
conditions of his employment. CCSF also explains that it is
JPD's practice to pay employees out of sick leave while
their workers' compensation claims are pending. If and
when coverage is granted, the sick leave is replenished.
CCSF further points out that plaintiff Lam originally filed a
workers' compensation claim, then voluntarily withdrew it.
Defendant CCSF also points out that, after plaintiff Lam
returned to work on January 24, 2011, his only medical

Page 79

restriction was to take a 15-minute break every two hours,
which was already provided to all JPD employees. JPD
informed plaintiff Lam that he could make a reasonable
accommodation request if he wished, but he chose not to,
finding that it "wasn't necessary" since he was already
being provided with a break every two hours.
The court finds that plaintiff Lam has not been entirely clear
about what constituted the alleged adverse action —
whether it was the denial of his requested accommodation,
or the use of his sick days to cover the missed workdays,
or both. In his opposition, plaintiff Lam appears to offer a
new theory of what constituted the adverse action, arguing
that "CCSF fails to acknowledge that they put Lam right
back in the same environment that caused his eye irritation
in the first place," and that "[t]o the reasonable person, it
would appear that CCSF JPD was trying to exacerbate
Lam's injuries without regard to any consequences it may
have had to Lam’s future physical and mental health." Dkt.
182 at 10.
The court will address each of these possible adverse
actions in turn. First, to the extent plaintiff Lam alleged that
he suffered an adverse action when he was "arbitrarily
denied accommodation," he has not provided sufficient
allegations — let alone evidence — for the court to
determine whether such denial actually was an adverse
action. Specifically, plaintiff Lam does not make clear what
specific accommodation he requested. Moreover,
defendant CCSF correctly argues that an employee is not
entitled to pick his own form of accommodation. See, e.g.,
Queen v. Hard Rock Hotel and Casino, 2011 WL 6753011
(D. Nev. Dec. 22, 2011). However, even if this was an
adverse action, plaintiff Lam has not provided evidence that
other similarly situated employees were treated more
favorably. To be clear, the complaint alleges that to be the
case, and even provides names of specific employees
whose accommodations were provided, but at this stage of

Page 80

he needs
the case, plaintiff needs more than allegations
evidence. Finally, even if plaintiff Lam could establish a
prima facie case of discrimination as to the alleged denial
of accommodation, defendant CCSF provides a declaration
stating that JPD's staffing needs made temporary
assignment to another post impracticable, necessitating
that plaintiff Lam be sent home if he was unable to work at
his assigned station. Dkt. 178-5, U 10. Plaintiff Lam has not
provided evidence showing that CCSF's stated legitimate,
non-discriminatory reason was merely a pretext for
discrimination. Accordingly, the alleged denial of
accommodation is not actionable.
Second, to the extent that plaintiff Lam claims that the use
of his sick days was an adverse action, the argument fails
because Lam was given the option of filing a workers'
compensation claim, which he did, and then voluntarily
withdrew. Thus, the use of plaintiff Lam’s sick days was the
result of his own actions, not any adverse action on the part
of CCSF. Moreover, plaintiff Lam does not allege (let alone
provide evidence) that other similarly situated employees
were treated differently with regard to the use of sick days
for medical leave. Thus, plaintiff Lam cannot establish a
prima facie case of discrimination with respect to the use of
his sick days. Finally, as before, defendant CCSF has
provided a legitimate, non-discriminatory reason for the use
of sick days, pointing to a JPD policy of using sick days
while a workers' compensation claim is pending. Plaintiff
Lam has not provided any basis for finding that stated
reason to be a pretext for discrimination, and thus, the use
of plaintiff Lam’s sick days is not actionable.
Third, to the extent that plaintiff Lam alleges that his
placement back in the same work post was an adverse
action, the court first notes that this theory was not pled in
any of the complaints filed in this case. Moreover, the fact
that plaintiff Lam specifically chose not to make a further
request for accommodation because it "wasn’t necessary"

Page 81

now precludes him from arguing that the placement was an
adverse action. Accordingly, the court finds that plaintiff
Lam's reassignment to his work post after returning from
medical leave is not actionable.
Overall, for the above reasons, the court finds that none of
the events surrounding plaintiff Lam's medical restrictions
and medical leave are actionable as part of his Title VII
discrimination claim.
The seventh adverse action alleged by plaintiff Lam is that
"[o]n or about January 27, 2011, Lam was denied
participation in a scheduled annual shift bidding process
without justification or cause." TAC, U 46.
In its motion, defendant CCSF argues that the shift bid was
indeed originally scheduled for January 27, 2011, but did
not actually occur until April 7, 2011, at which time plaintiff
Lam actually did participate. However, if it had occurred in
January, CCSF concedes that plaintiff Lam would not have
been eligible, because in order to be eligible for a shift bid,
an employee must be medically cleared to work at least
seven days prior to the bid. Because, as discussed above,
plaintiff Lam was on medical leave through January 23,
2011, he was not eligible to participate in a shift bid on
January 27, 2011.
In his opposition, plaintiff Lam admits that he participated
in the April 2011 shift bid, but claims that CCSF "does not
acknowledge the hurdles they presented to Lam in making
this participation," nor does it "discuss the shift bid
processes prior to and subsequent to the April 2011 shift
bid." While plaintiff Lam may be correct on those points,
they are irrelevant to determining whether he suffered an
adverse action by being "denied participation" in the
January 2011 shift bid. And because plaintiff Lam actually
did participate in the rescheduled shift bid, the court finds
no triable issue as to whether plaintiff Lam suffered an

Page 82

adverse action. The court also notes that plaintiff Lam has
presented no evidence of a discriminatory motive or of
other similarly situated employees being treated more
favorably. Thus, the shift bid-related allegations are not
actionable as part of plaintiff Lam's Title VII discrimination
claim.
The eighth adverse action alleged by plaintiff Lam is that
"[o]n or about May 14, 2011, Lam was given a written
reprimand and placed on 'sick leave restriction’ without
justification and merit." TAC, 47.
In its motion, defendant CCSF explains that employees are
given 12 sick days for every rolling one-year period, and
after those days are used, employees must provide a
doctor's note after returning to work. JPD's policy was to
issue a written notice of placement on "sick leave
restriction," but such notice did not constitute a disciplinary
action.
Defendant CCSF then acknowledges that plaintiff Lam was
placed on sick leave restriction in May 2011, and points out
that many of the 12 sick days already used by Lam were
the result of his January 2011 medical leave. As mentioned
above, Lam chose not to pursue his workers' compensation
claim, and as a result, his sick days were never
replenished.
The court previously found that "the use of plaintiff Lam's
sick days was the result of his own actions, not any adverse
action on the part of CCSF," and the same rationale applies
here. Lam's placement on sick leave was the result of his
own decision not to pursue his workers' compensation
claim, and thus cannot constitute an adverse action.
Moreover, plaintiff Lam has not provided evidence of a
discriminatory motive or of other similarly situated
employees being treated more favorably, so he has failed
to establish a prima facie case of discrimination. Finally,

Page 83

even if he was able to establish a prima facie case,
defendant CCSF has presented a legitimate, nondiscriminatory reason for the sick leave restriction,
presenting evidence that this was a department-wide policy
used to monitor and manage sick leave abuse. Plaintiff
Lam has not provided any reason to believe that the policy
was a pretext for discrimination, and thus, the court finds
that the May 2011 sick leave restriction is not actionable as
part of plaintiff Lam's Title VII discrimination claim.
Having addressed all of the adverse actions alleged as part
of plaintiff Lam's third cause of action for discrimination
under Title VII, and having found none of them to be
actionable, the finds that defendants' motion for summary
judgment must be GRANTED as to the third cause of action
as asserted by plaintiff Lam.
Turning to plaintiff Leiato's claims, her first alleged adverse
action is similar to plaintiff Lam's — she alleges that "[o]n
or around March 2010, Leiato was denied promotion
despite nearly fifteen (15) years of experience, likely due to
her race, gender, national origin, and previous complaints
against JPD and CCSF." TAC, 67. And like plaintiff Lam,
Leiato also alleges that "[tjhroughout her career at the JPD,
Leiato repeatedly and continually asked to be assigned to
acting supervisory positions," and specifically points to
instances in March 2010, September or October 2011,
December 2011, January 2012, and February 2012 when
she asked to be appointed to such a position. Id.,
72-80.
The analysis for plaintiff Leiato's "failure to promote"
allegations is similar to that for plaintiffs Lam’s "failure to
promote" allegations, as set forth above. With respect to
the March 2010 promotions, plaintiff Leiato appears not to
challenge the fact that she did not actually apply for the
promotion or take the job-related examination, instead
arguing that "it was generally known throughout the
Department that Lam and Leiato did inquire several times

Page 84

1
about being considered for any promotions," and that
"neither plaintiff ever was made apprised of the process
and no one was willing to guide them through whatever
corporate hoops' the plaintiffs had to jump through to be
considered for promotion." Dkt. 182 at 8.
Even if plaintiff Leiato is correct that her supervisors did not
help her apply for a promotion, the fact remains that she
did not apply, and thus was ineligible for a promotion in
March 2010. This fact alone precludes plaintiff Leiato from
establishing a prima facie case of discrimination as to the
March 2010 promotion. See, e.g., Ratti v. City and County
of San Francisco, 1992 WL 281386 (N.D. Cal. 1992)
("[Application to the positon is a necessary element of
raising a claim for discrimination by disparate treatment.").
For that reason, plaintiff Leiato has not shown that she
suffered an adverse action by not receiving a promotion in
March 2010. Moreover, plaintiff Leiato has not shown that
defendant acted with a discriminatory motive, or that other
similarly situated employees were treated more favorably.
For those reasons, the court finds that any alleged denial
of promotion in March 2010 is not actionable as part of
plaintiff Leiato's Title VII discrimination claim.
However, like plaintiff Lam, plaintiff Leiato also alleges that
she was denied an acting supervisory position. And as the
court found with respect to plaintiff Lam, because there is
no evidence of the procedure for requesting appointments
to acting supervisory positions, the court finds that plaintiff
Leiato has raised at least a triable issue as to whether she
suffered an adverse action when she was denied an
appointment to an acting supervisory position.
However, in order to establish a prima facie case of
discrimination, plaintiff Leiato must also present evidence
that other employees with qualifications similar to her own
were treated more favorably, or that the employer had a
discriminatory motive. In the complaint, plaintiff Leiato does

Page 85

allege that plaintiffs "non-APA counterparts received the
additional pay and opportunities for promotion requested
by plaintiff," but at this stage of the case, more than mere
allegations are required. Plaintiff Leiato must provide
evidence showing that similarly situated non-APA
employees were in fact treated more favorably.
As mentioned above, in the opposition brief, plaintiffs
provide more specifics, but they relate only to the
promotion to permanent positions, not to the appointment
to acting positions. See Dkt. 182 at 3. And as also
mentioned above, defendant CCSF presents evidence that
two Asian-Americans (Dennis Woo and Scott Kato) were
appointed to acting positions during the relevant time
period. See Dkt. 187-1, Ex. C at 238:11 -19, 247:11 -13; see
also Dkt. 178-5,1|25.
Based on plaintiff Leiato's lack of evidence that defendant
CCSF acted with a discriminatory motive in failing to
appoint her to an acting supervisory position or other
evidence that similarly situated employees were treated
more favorably, and based on CCSF's evidence that two
Asian-American employees were in fact appointed to acting
positions, the court finds that plaintiff Leiato has not
established a prima facie case of discrimination as to the
failure to appoint her to an acting supervisory position.
However, even if plaintiff Leiato were able to establish a
prima facie case, defendant CCSF has presented a
legitimate, non-discriminatory reason for any alleged
adverse action — namely, that more qualified candidates
would have been appointed over her. See Dkt. 178-5, U 36.
The JPD director (Toni Ratcliff-Powell) acknowledges that
plaintiff Leiato had been told that she could be
recommended for an acting position "if she were able to
remedy her chronic absenteeism and excessive use of sick
leave, as well as avoid altercations that led to disciplinary
issues," but that "Leiato did not rectify such issues during

Page 86

,v'

[Ratcliff-Powell's] tenure as director." Id. Moreover, RatcliffPowell states that, even if Leiato had been able to rectify
those issues, other candidates were still more qualified
because "they did not have performance problems similar
to Leiato's," such as her "refus[al] to work in certain parts
of her assigned unit," her refusal to conduct room searches,
and the fact that she was on sick leave restriction during
Ratcliff-Powell’s entire tenure from 2008 through 2013. Id.
In the opposition brief, plaintiff Leiato argues that "CCSF's
'blanket' statement that there were more qualified
candidates is quite nebulous because they fail to indicate
whom is more qualified." Dkt. 182 at 14. The court agrees
that, if CCSF had merely stated that there were more
qualified candidates,that would be too "nebulous" to
constitute a legitimate, non-discriminatory reason.
However, CCSF provided a declaration setting forth
specific performance issues, and plaintiff Leiato does not
provide evidence showing that the stated performance
issues were not factually accurate, or that they were offered
as a pretext for discrimination.
For all of the above reasons, the court finds that any alleged
denial of appointment of plaintiff Leiato to an acting
supervisory positon is not actionable as part of her Title VII
discrimination claim.
The second adverse action alleged by plaintiff Leiato is that
”[o]n or around November 2010, Leiato submitted
competent medical certification to request leave for a
doctor's appointment," but was "arbitrarily denied leave and
pay and thereafter charged with 'misuse of sick time’ and
being AWOL for her November 24, 2010 medical
appointment that she notified her supervisors of." TAC, U
70.
Interestingly, in its motion, defendant CCSF does not
challenge plaintiff Leiato's failure to establish a prima facie

Page 87

case of discrimination, even though it appears that Leiato
has failed to provide evidence of a discriminatory motive,
or of similarly situated employees being treated more
favorably. Because CCSF did not raise the issue, the court
will not rely on the apparent failure to establish a prima facie
case, and will instead evaluate CCSF's proffered
legitimate, non-discriminatory reason for denying Leiato
leave.
In its motion, CCSF points out that the day for which Leiato
requested leave was the day before Thanksgiving, a day
that "many others had already asked for and obtained
approval for vacation," such that "the Hall could not absorb
any more absences." See Dkt. 178-5,
27. Moreover,
CCSF also attaches contemporaneous notes from Leitao's
supervisor which shows that the denial of leave was
conditional, and that Leiato could have had the day off if
she "provided proof of medical necessity" in advance,
which she did not do. Dkt. 178-5, Ex. 18. When Leiato
ultimately did not come to work on November 24, she was
issued a written reprimand. Dkt. 178-5, 29.
Plaintiff Leiato does not appear to address this proffered
legitimate, non-discriminatory reason in her opposition
brief. In fact, it appears that the November 2010 denial of
leave is not mentioned at all. Leiato does mention one
instance where she "took a day off without approval," but
she states that she needed the day off for a "family event,"
which suggests that it is referring to the July 2010 denial of
leave that was already alleged in Lam I (and thus barred
from this suit under principles of res judicata). Thus, in the
absence of any evidence that undermines CCSF's stated
reason for the discipline, the court finds that the denial of
plaintiff Leiato's request for leave in November 2010 is not
actionable as part of her Title VII discrimination claim.
The third adverse action alleged by Leiato is that she has
"routinely been assigned to work with two on-call staff,

Page 88

where the common practice is 2:1 permanent to on-call
ratio." TAC, U 70. Leiato alleges that "[t]his work
assignment makes it harder to perform her job
responsibilities, prolonging the time it takes and putting her
in danger." Id.
In its motion, defendant CCSF notes that, at her deposition,
plaintiff Leiato could not provide information about any
specific incidents when she was assigned to work with oncall staff, nor could she state when the alleged incidents
occurred. CCSF also points out that the court addressed
an identical allegation in Lam I, and while they were alleged
in the context of a harassment claim (rather than a
discrimination claim), the court ultimately held that
"[njeither [Leiato's] assignment to work with two newly hired
on-call counselors, nor the refusal of Leiato's request to
leave work two hours early, constitute any material change
or alteration in the terms of plaintiffs employment, such that
an adverse employment action has been stated." Lam I,
. 868 F.Supp.2d 928, 950 (N.D. Cal. 2012). The court's
previous finding applies with equal force here, and thus,
plaintiff Leiato is unable to establish a prima facie case of
discrimination. Moreover, plaintiff Leiato's inability to
provide dates on which she was assigned to work with oncall staff prevents the court from being able to make a
determination as to whether this allegation is barred by res
judicata. For all of those reasons, the court finds that any
allegations regarding plaintiff Leiato's alleged assignment
to work with on-call staff are not actionable as part of her
Title VII discrimination claim.
Having addressed all of the adverse actions alleged as part
of plaintiff Lam's third cause of action for discrimination
under Title VII, and having found none of them to be
actionable, the finds that defendants' motion for summary
judgment must be GRANTED as to the third cause of action
as asserted by plaintiff Leiato.

Page 89

Turning back to the first and second causes of action,
brought under section 1983 and 1981 respectively. In Lam
I, the court noted that "when analyzing claims of disparate
treatment in employment under § 1981 or § 1983, a district
court is guided by Title VII analysis." Lam I, 868 F.Supp.2d
at 951 (citing St. Mary's Honor Center v. Hicks. 509 U.S.
502, 506 n. 1 (1993); Surrell v. California Water Serv. Co.,
518 F.3d 1097, 1103, (9th Cir. 2008): Mustafa v. Clark
County Sch. Dist.. 157 F.3d 1169, 1180 (9th
Cir.1998): Lowe v. City of Monrovia. 775 F.2d 998, 101011 (9th Cir. 1985)1.
Starting with the section 1983 claim, the court extensively
addressed this legal standard in Lam I:
To state a claim under section 1983
for a violation of the Equal Protection
Clause, a plaintiff "must show that
the defendants acted with an intent
or purpose to discriminate against
the plaintiff based upon membership
in a protected class," and that
plaintiff was treated differently from
similarly
situated.
persons
See Barren v. Harrington, 152 F.3d
1193. 1194 (9th Cir. 1998): Lee v.
City of Los Angeles, 250 F.3d 668
(9th Cir. 2001); see also Washington
v. Davis. 426 U.S. 229. 239-40
(1976). As the parties here note, a
plaintiff may satisfy this showing by
alleging four separate elements: (1)
that the plaintiff was treated
differently from others similarly
situated; (2) this unequal treatment
was based on an impermissible
classification; (3) that the defendant
acted with discriminatory intent in

Page 90

applying this classification; and (4)
the plaintiff suffered injury as a result
of the discriminatory classification.
See, e.g., Pers. Adm'r of Mass, v.
Feenev. 442 U.S. 256. 279 (1979):
see also T.A. ex rel. Amador v.
McSwain Union Elementary Sch.
Dist., 2009 WL 1748793 (E.D. Cal.
2009).
Lam I, 868 F.Supp.2d at 951.
The court's analysis in Lam I also applies with equal force
in this case:
Ultimately, the same deficiencies
that preclude a finding that triable
issues of material fact exist in
connection with plaintiffs' Title VII
claims, exist with respect to plaintiffs'
section 1983 claim. Namely, and for
all the reasons highlighted in
connection
with
the
court's
discussion of plaintiffs' Title VII
claims, plaintiffs' evidence fails to
demonstrate that plaintiffs — each of
them — were treated differently from
others similarly situated, based on
an impermissible classification. In
other words, plaintiffs' evidence fails
to raise a triable issue as to the
existence
of a
discriminatory
"purpose" in the actions taken by
plaintiffs' JPD supervisors. As such,
plaintiffs
do
not
prevail
in
establishing a triable issue as to their
section 1983 claims.

Page 91

Moreover, to establish municipal
liability of the City under section
1983, plaintiffs must show: (1) that
they possessed a constitutional right
of which they were deprived; (2) that
the municipality had a policy; (3) that
this policy amounts to deliberate
indifference
to
the
plaintiffs'
constitutional rights; and (4) that the
policy is the moving force behind the
constitutional violation. Plumeau v.
Sch. Dist. #40 County of Yamhill,
130 F.3d 432, 438 (9th Cir. 19971.
There can be no municipal liability
without an underlying constitutional
violation. See Scott v. Henrich, 39
F.3d 912, 916 (9th Cir. 1994).
Here, because plaintiffs fail to
establish the existence of triable
issues with respect to any equal
protection violation that underlies
their section 1983 claims, they also
fail to establish the first of the
elements necessary for liability
against the City .e.,
a
"constitutional violation."
Lam I, 868 F.Supp.2d at 951-52.
Accordingly, the court finds that summary judgment must
be GRANTED as to plaintiffs' first cause of action brought
under section 1983.
Turning to the section 1981 claim, the Ninth Circuit has held
that "[ajnalysis of an employment discrimination claim
under § 1981 follows the same legal principles as those
applicable in a Title VII disparate treatment case," and that
"[b]oth require proof of discriminatory treatment and the

Page 92

same set of facts can give rise to both claims." Fonseca v.
Sysco Food Services of Arizona, Inc., 374 F.3d 840, 850
(9th Cir. 2004). Applying that standard, based on both
plaintiffs' failure to establish a viable Title VII discrimination
claim (including their specific failure to present evidence of
discriminatory intent), the court finds that summary
judgment must also be GRANTED as to both plaintiffs'
second cause of action under section 1981.
Next, the court will address plaintiffs' fourth cause of action,
for Title VII harassment and hostile work environment
based on race and national origin. To prevail on a hostile
workplace claim premised on race, a plaintiff must show:
(1) that he was subjected to verbal or physical conduct of a
racial nature; (2) that the conduct was unwelcome; and (3)
that the conduct was sufficiently severe or pervasive to
alter the conditions of the plaintiffs employment and create
an abusive work environment. See Fuller v. City of
Oakland. 47 F.3d 1522, 1527 (9th Cir.1995). The more
outrageous the conduct, the less frequent must it occur to
make a workplace hostile. See Ellison v. Brady, 924 F.2d
872, 878 (9th Cir. 1991). To determine whether conduct is
sufficiently severe or pervasive to violate Title VII, the court
looks at all surrounding circumstances, including
frequency, severity, whether the alleged conduct is
threatening or humiliating, or merely an offensive
utterance, and whether it interferes with an employee's
work performance. See, e.g., Vasguez v. City of Los
Angeles. 349 F.3d 634, 649 (9th Cir. 20041. Finally, the
allegations of a racially hostile workplace must be
assessed from the perspective of a reasonable person
belonging to the same racial or ethnic group as the plaintiff.
See Nat'l Railroad Passenger Corp. v. Morgan. 536 U.S.
101. 116 (2002): McGinest v. GTE Service Corp.. 360 F.3d
1103. 1115 (9th Cir. 2004).
Both plaintiffs fail to present evidence regarding prongs (1)
and (3) — namely, that they were subjected to verbal or

Page 93

physical conduct of a racial nature, or that the conduct was
sufficiently severe or pervasive to alter the conditions of
employment. As mentioned repeatedly throughout the
discussion of plaintiffs' Title VII discrimination claim,
plaintiffs fail to present evidence that any conduct to which
they were subjected was based on their race or national
origin. Nor does the sporadic nature of the alleged conduct
meet the "severe or pervasive" standard required for a
harassment claim. Accordingly, defendants' motion for
summary judgment is GRANTED as to the fourth cause of
action for harassment and hostile work environment under
Title VII.
Next, the court will address plaintiffs' fifth cause of action,
for retaliation under Title VII. Generally, in order to make
out a prima facie case of retaliation, a plaintiff must
establish "that [he or she] acted to protect [his or her] Title
VII rights, that an adverse employment action was
thereafter taken against [him or her], and that a causal link
exists between those two events." See Steiner v. Showboat
Operating Co.. 25 F.3d 1459, 1465 (9th Cir.1994T
In the complaint, plaintiffs allege that they "have alleged
instances of racial discrimination in the workplace, reported
these allegations to their superiors, and filed relevant
complaints with administrative agencies." TAC,
128.
Plaintiffs further allege that, as a result, "defendant
subjected plaintiff to adverse employment actions,
including but not limited to harassment, reassignment,
suspension and discharge," and that "[t]hese adverse
actions were meant to dissuade plaintiffs, or any other
reasonable employees from making or supporting charges
of racial discrimination and were causally connected to
plaintiffs' protected activities and conduct." Id.
For the reasons discussed above, the court finds that
plaintiffs have failed to raise triable issues of fact as to
whether they suffered an adverse action for the majority of
Page 94

their allegations. And even more importantly, plaintiffs have
failed to establish a causal nexus between any alleged
protected activity and any specific adverse action that they
allegedly suffered. For those reasons, defendants' motion
for summary judgment must be GRANTED as to the fifth
cause of action.
Finally, plaintiffs' sixth cause of action iss brought under
California Government Code § 12940 for failure to prevent
unlawful discrimination and harassment. Generally, it is an
unlawful employment practice under FEHA for an employer
to "fail to take all reasonable steps necessary to prevent
discrimination and harassment from occurring." See Trujillo
v. North Co. Transit Distr., 63 Cal. App. 4th 280. 289

(1998).
California law under FEHA mirrors federal law under Title
VII. Thus, and since plaintiffs have not established
discrimination or harassment in the first instance — for the
foregoing reasons — plaintiffs' claim for failure to prevent
or investigate such discrimination, fails at the outset.
See Trujillo, 63 Cal. App. 4th at 289; Tritchler v. County of
Lake. 358 F.3d 1150.1155 (9th Cir. 2004): Cook v. Lindsav
Olive Growers. 911 F.2d 233 (9th Cir.1990) (citing Mixon v.
FEHC, 192 Cal. App. 33d 1306 (1987) for the proposition
that Title VII law applies to FEHA claims). Acccordingly,
defendants' motion for summary judgment is GRANTED as
to plaintiffs' sixth cause of action.
CONCLUSION
Defendants' motion for summary judgment is GRANTED as
to all of the claims asserted by plaintiffs. The Clerk is
directed too close the file.
IT IS SO ORDERED.

Page 95

f1] The individual defendants are Timothy Diestel, Dennis Doyle, Charles
Lewis, Toni Ratcliff-Powell, John Radogno, Tamara Ratcliff, Mildred Singh,
Robert Taylor, and Barry Young.
12] In addition to plaintiffs Lam and Leiato, this suit was originally filed by
plaintiffs Gregory Chin and Frank Chen. Plaintiffs Chin and Chen have since
been dismissed from this suit.

Page 96

Appendix C:

U.S. District Court Denying

Motion for Reconsideration on 7/18/2016

Page 97

United States District Court, N.D. California.
Case No. 10-cv-4641-PJH.
July 22, 2015.
ALFRED LAM, et al., Plaintiffs,
v.
THE CITY & COUNTY OF SAN FRANCISCO, et al.,
Defendants.
ORDER DENYING MOTION FOR
RECONSIDERATION
PHYLLIS J. HAMILTON, District Judge.
Before the court is plaintiffs' motion for reconsideration of
the order denying plaintiffs' motion to stay proceedings
pending appeal. In the motion for reconsideration, plaintiffs
address the four factors governing the issuance of a stay,
which were set forth in the court's previous order. See Dkt.
127 (citing Golden Gate Restaurant Ass'n v. City and
County of San Francisco. 512 F.3d 1112, 1115 (9th Cir.
2008)). Specifically, those four factors are (1) whether the
stay applicant has made a strong showing that he is likely
to succeed on the merits, (2) whether the applicant will be
irreparably injured absent a stay, (3) whether issuance of a
stay will substantially injure the other parties interested in
the proceeding, and (4) where the public interest lies.
In their motion for reconsideration, plaintiffs do provide
newly-cited case law that bears on the merits of their
appeal. Specifically, whereas plaintiffs had previously
provided no support for their argument that the statute of
limitations for section 1981, 1983, and 1991^0 claims had
been legislatively extended from two years to four years,
they now cite a case that lends support to their position, at
least as to the section 1981 claim. Johnson v. Lucent

Page 98

Technologies Inc.. 653 F.3d 1000. 1008 (9th Cir. 2011V
While this case certainly bolsters their appeal, the court still
finds that plaintiffs have fallen short of a "strong showing
that [they] are likely to succeed on the merits," because
plaintiffs failed to provide a proposed amended complaint
along with their motion for leave to file a fourth amended
complaint, as required by Civil Local Rule 10-1. Indeed, by
not submitting a proposed amended complaint or even
summarizing the newly-proposed allegations, the court had
no way of determining whether amendment would be futile
or otherwise improper under Federal Rule of Civil
Procedure 15. Even more importantly, it appears that the
Ninth Circuit lacks jurisdiction over plaintiffs’ appeal, as this
court's order denying leave to file a fourth amended
complaint was not a final, appealable order. Thus, despite
the new citation to Johnson v. Lucent, the court still finds
that plaintiffs have not made a sufficient showing of
likelihood of success on the merits.
Further, even if the court were to find that plaintiffs had
shown a likelihood of success on the merits, it still finds that
the lack of any irreparable injury warrants against a stay.
As the court previously held, ”[t]he only ‘injury’ that would
result from denial of a stay would be the requirement of
plaintiffs' participation in the discovery process, hardly an
‘injury’ (given that they filed this suit) nor ‘irreparable.’" See
Dkt. 127 at 2.
In their reconsideration motion, plaintiffs assert that they
"will be irreparably injured due to the financial,
psychological, and emotion[al] impacts the decision would
entail." Dkt. 129 at 5-6. This argument does not address
the question of how plaintiffs would be harmed absent a
stay, and addresses only the impact of an adverse decision
on the merits of their motion to amend the complaint. As
mentioned above, absent a stay, the only "injury" that would
result is the requirement that plaintiffs participate in the

Page 99

discovery process. That does not constitute "irreparable
injury."
Accordingly, the court DENIES plaintiffs' motion for
reconsideration.
IT IS SO ORDERED.
m The court assumes that the reference to "section 1991" claims was in
error, as section 42 U.S.S. § 1991 governs fees for persons appointed to
execute process.

Page 100

Appendix D: 9th (Ninth) Circuit Motion for
Reconsideration Decision on 4/19/2019

Page 101

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALFRED LAM; PAULA LEIATO,
Plaintiffs - Appellants,
V.
CITY AND COUNTY OF SAN FRANCISCO;
et al.,
Defendants - Appellees.

April 19, 2019
No. 16-15596
D.C. No. 4:10-cv-04641-PJH
Northern District of California, Oakland
ORDER
Before: WALLACE, FARRIS, and TROTT, Circuit
Judges,
Appellants' motion for reconsideration is DENIED.
No further motions will be entertained in this closed
case.

Page 102

Appendix E: U.S. District Court Order Denying
Motion for Leave to Amend Complaint on 5/11/2015

Page 103

United States District Court, N.D. California.
May 11,2015.
ALFRED LAM, et al., Plaintiffs,
v.
CITY AND COUNTY OF SAN FRANCISCO, et al.,
Defendants.
No. C 10-4641 PJH.
ORDER DENYING MOTION FOR LEAVE TO AMEND
COMPLAINT
PHYLLIS J. HAMILTON, District Judge.
Before the court is plaintiffs' motion for leave to file a
fourth amended complaint. Plaintiffs have actually filed
two separate versions of their motion, and while there are
slight differences between the two documents, they are
substantially the same in substance, and they seek the
same relief. See Dkt. 106, 111.
In each motion, plaintiffs argue that they are entitled to
amend their complaint under Rule 15 because (1) "the
court failed to follow the correct statute of limitations
governing the underlying action," and (2) "opposing
counsels intentionally or negligently failed to direct the
court to the correct statute of limitations." See Dkt. 106 at
5-6; Dkt. 111 at 4. Plaintiffs argue that they need to file an
amended complaint to present "facts showing the statute
of limitations of section 1981, 1983, and 1991 have been
legislatively extended from two years to four years." Dkt.
106 at 8-9.
Although the above-quoted portions of plaintiffs' motion
suggest that plaintiffs seek to add only allegations that

Page 104

were previously held to be time-barred, other portions of
plaintiffs' motion indicate that plaintiffs also seek to pursue
new theories of relief. Whereas the first four versions of
plaintiffs' complaint asserted only claims based on race
and national origin discrimination, plaintiffs now also
argue that "age is a factor of denying or not appointing
APA [Asian Pacific Americans] employees" and "religious
affiliation is a factor of denying or not promoting APA
employees." Dkt. 106 at 8. The motion also makes a
vague reference to alleged gender discrimination. Dkt.
106 at 8. Thus, it appears that plaintiffs seek to add not
only allegations that were previously found time-barred,
but also allegations related to new theories of
discrimination.
Defendant’s opposition brief raises a number of objections
to plaintiffs' request to amend the complaint. As a general
matter, defendant points out that plaintiffs have not
submitted a proposed amended complaint, even though
Civil Local Rule 10-1 requires that "[a]ny party filing or
moving to file an amended pleading must reproduce the
entire proposed pleading." The court agrees that plaintiffs'
failure to provide a proposed fourth amended complaint is
fatal to their current motion, as it leaves the court with no
way to determine whether plaintiffs' proposed
amendments are allowable. For that reason alone,
plaintiffs' motion must be denied. However, the court also
finds it useful to address the specific arguments raised by
plaintiffs, to avoid any future need to re-address issues
that have already been decided.
As to the statute of limitations issue, defendant argues
that plaintiffs "cite no case law to support that the statute
of limitations of section 1983 or 1981 claims^ has
changed since the court’s previous order."
Indeed, the court finds that plaintiffs provide no support for
the argument that the statute of limitations for section

Page 105

1981/1983 claims has been "legislatively extended." The
Ninth Circuit has repeatedly held that California's statute
of limitations for personal injury claims applies to federal
civil rights claims under sections 1981 and 1983. See,
e.g., Johnson v. California, 207 F.3d 650, 653 (9th Cir.
2000); Taylor v. Regents of University of California, 993
F.2d 710, 711 (9th Cir. 1993). California's statute of
limitations for personal injury claims is two years. Cal.
Code Civ. Proc. § 335.1.
Moreover, the court's previous dismissal order was based
not only on statute of limitations grounds, but on res
judicata grounds. Here, some background is necessary.
This suit is the second discrimination suit filed by plaintiffs.
The first, referred to as "Lam I," was filed on October 10,
2008, and was based on alleged race and national origin
discrimination by defendant City and County of San
Francisco. See Case No. 08-4702. On October 14, 2010,
while Lam I was pending, plaintiffs filed the current suit,
referred to as "Lam II." Like Lam I, Lam II also arises out
of alleged race and national origin discrimination by
defendant.
On April 13, 2012, the court granted summary judgment in
favor of defendant in Lam I. Shortly thereafter, on May 1,
2012, defendant filed a motion to dismiss the complaint in
this case, making two arguments; (1) that principles of res
judicata barred the re-litigation of claims that were raised
or could have been raised in Lam I, and (2) that the
applicable statute of limitations barred claims arising
before October 14, 2008 (two years before Lam II was
filed).
The court granted in part and denied in part defendant's
motion to dismiss on June 8, 2012. See Dkt. 49. By now
arguing that "the court failed to follow the correct statute of
limitations," it appears that plaintiffs are challenging that

Page 106

June 8, 2012 order by filing this motion. Indeed, plaintiffs
argue in their motion that "the summary judgments by this
court on 6/8/2012 was based upon reversible errors." Dkt.
106 at 9.
As defendant notes, plaintiffs are essentially seeking
reconsideration of the court's June 2012 order. While the
untimeliness of this request would provide a sufficient
basis for its denial, the merits of the request also provide
basis for denial. Plaintiffs overlook the fact that the court's
dismissal was primarily based on res judicata, which
operates independently from any statute of limitations bar.
In fact, the court expressly held that the statute of
limitations was ultimately "of no consequence, given the
other limitations imposed by the court." Dkt. 49 at 2.
Specifically, in its previous order, the court first found that
plaintiffs' claims under section 1981 and 1983 were timebarred to the extent that they were based on conduct
occurring before October 14, 2008 (two years before Lam
M's filing). However, the court then found that any
allegations that either were raised or could have been
raised in Lam I were subject to res judicata. The court
used the date of the last-filed complaint in Lam I as the
dividing line to determine whether claims "could have
been raised" in Lam I, and thus, found that any claims
arising out of "conduct occurring prior to . . . February 22,
2010" were barred by res judicata. Dkt. 49 at 2. Thus,
while the statute of limitations bars any conduct occurring
before October 14, 2008, the res judicata bar provides an
even stronger restriction, barring conduct occurring before
February 22, 2010. The res judicata bar renders plaintiffs'
statute of limitations argument moot. Plaintiffs' motion for
leave to amend is DENIED, as any amendment to add
conduct occurring before February 22, 2010 would be
futile.

Page 107

As mentioned above, plaintiffs also seek to add
allegations relating to alleged age, gender, and religious
discrimination. However, aside from the mere mention of
these theories of relief, plaintiffs' motion contains no
explanation of the alleged conduct underlying these
theories. Plaintiffs provide no details regarding the alleged
age/gender/religious discrimination — no description of
the conduct, no dates, and no identification of the
individuals who committed or who suffered the
discrimination. For that reason, the court cannot
determine whether the proposed allegations are futile,
prejudicial, and/or the product of undue delay. In response
to defendant's opposition, plaintiffs submitted a
"supplemental brief’ along with over 200 pages of
exhibits, arguing that those exhibits "provide more than
adequate information concerning the need of plaintiffs to
submit the [fourth] amended complaint." Dkt. 113 at 2.
However, plaintiffs cannot avoid the requirement to submit
a proposed amended complaint by simply attaching
hundreds of pages of exhibits and asking the court to sift
through them looking for facts that might support a viable
discrimination claim. Thus, to the extent that plaintiffs'
motion seeks to add allegations regarding
age/gender/religious discrimination, within the appropriate
time frame from February 22, 2010 to the present, it is
DENIED for failure to specify the factual allegations
underlying such claims and to provide a proposed
amended complaint.
Plaintiffs' motion also raises two arguments unconnected
to their statute of limitations argument or their
age/gender/religious discrimination argument. First,
plaintiffs argue that "newly discovered evidence has
arisen since the initial filing on October 14, 2010." To the
extent that plaintiffs seek to add after-arising facts, they
essentially seek to supplement, not to amend, the
complaint. Regardless of the form of plaintiffs' request, the
court finds that plaintiffs have not adequately described

Page 108

the allegations that they seek to add to the complaint.
Plaintiffs make a general reference to "systematic,
ongoing, and continuous discrimination," but do not
provide any specific facts. Thus, for the same reason as
above, the court finds that plaintiffs' request to supplement
their complaint with "new" facts that have not been
provided must be DENIED.
Finally, without much explanation, plaintiffs argue that
"recertification of a class action in the underlying action is
necessary, due to the possibility of new victims coming
forward, inconsistent judgments, judicial economy, and
having plaintiffs too numerous to ascertain at the time of
filing."
Given that a class has never been certified in this case,
there is no way that the court could "recertify" a class.
Instead, it appears that plaintiffs seek to amend their
complaint to re-add class allegations. Plaintiffs' original
complaint in this case, which was filed in pro per on
October 14, 2010, was brought as a putative class action.
However, after the court issued an order to show cause
based on plaintiffs' failure to prosecute, plaintiffs retained
an attorney, and on July 26, 2011, plaintiffs' counsel filed
a first amended complaint, which did not assert any
claims on behalf of a putative class. Plaintiffs' counsel
then filed second and third amended complaints, neither
of which contained class claims.
Having abandoned their class claims in July 2011,
plaintiffs cannot revive them now, particularly given that
plaintiffs are proceeding without counsel and
unrepresented plaintiffs may not represent a class. See,
e.g., C.E. Pope Equity Trust v. United States. 818 F.2d
696, 697 (9th Cir. 1987) (holding that a pro se litigant may
not appear as an attorney for others); Russell v. United
States. 308 F.2d 78. 79 (9th Cir. 1962) ("A litigant

Page 109

appearing in propria persona has no authority to represent
anyone other than himself).
IT IS SO ORDERED.
11] Defendant includes a footnote explaining that plaintiffs' reference to a
"section 1991" was likely an error, since 42 U.S.C. § 1991 relates to fees
for service of process. The court similarly finds that plaintiff's reference
was likely made in error.
[2] Presumably, plaintiffs intended to refer to this court's dismissal order,
even though they used the term "summary judgment."

Page 110

Appendix F: “Protected Activities” by
Petitioners between January 1, 2010 to
December 31, 2012.

Page 111

“Protected Activities” by Petitioners
between January 1, 2010 to December 31, 2012.
“It shall be an unlawful employment practice for
an employer to discriminate against any of his employees
or applicants for employment ... because he has
opposed any practice made an unlawful employment
practice by this subchapter, or because he has made a
charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or hearing
under this subchapter.” 42 U.S.C. §2000e-3(a)
(emphasis added).
The respondents are in possession of all the
following “protected activities” of written reports or
complaints provided by petitioners either to the
district court and ninth circuit. However, the district
court denied petitioners the right to “amend the
following protected activities on or about May 11, 2015
[see Appendix E] as follows: (1) On or about January
12, 2010, petitioner Lam filed a memo to San
Francisco Ethics Commission to resolve respondents’
employees unethical conduct;
(2) On or about
February 12, 2010, Lam filed a grievance to
respondents included the Mayor of San Francisco
regarding on-going discrimination by Director Toni
Radcliff-Powell in petitioners’ worksite; (3) On or
about March 3, 2010 and September 3, 2010, Lam
submitted a memo to respondents relevant agencies
regarding requesting an “investigative order” of
promotion based nepotism of Toni Radcliff-Powell,
who promoted her sister Tamara Ratcliff; (4) In May,
2010, Lam complained of harassment and retaliation
in delaying approval of his request for vacation, which
Lam requested on March 6, 2010, but was later
Page 112

approved on May 27, 2010; (5) On or about March 10,
2010 and June 6, 2010, Lam submitted a “budget
saving idea” to respondents’ proper agencies regarding
a “suggestion to save City & County of San Francisco
an amount of ten million dollars over a next three year
period;
(6) On or about March 16, 2010, Lam
submitted a memo to respondents’ proper agencies
and commission regarding respondents’ agents of
“mistreatment and neglect of minor youths inside
petitioners’ worksite of SF Juvenile Hall; (7) On or
about April 6, 2010, Lam submitted a memo regarding
his employer violating the SEIU union contract of
adversely altering working conditions; (8) On or
about April 19, 2010, Lam filed an amended charge of
discrimination, harassment, intimidation,
and
retaliation to CA Dept of Fair Employment and
Housing against respondents; (9) On or about May
22, 2010, Lam submitted a memo to respondents’
proper agencies including Gavin Newsom regarding
on-going discrimination, harassment, intimidation,
and retaliation and employee’s misconduct; (10) On
or about May 25, 2010, Lam filed a complaint to CAOSHA regarding an unsafe workplace environment in
one of the posted positions inside petitioners’ worksite;
(11) On or about June 4, 2010, Lam filed a written
report to respondents’ agent William Siffermann,
Chief of SF Probation Department regarding an
unsafe work environment issue of Toni RadcliffPowell having a firearm in her office, which is located
inside the SF Juvenile Hall facility although it is
prohibited; (12) On or about June 4, 2010, Lam
submitted a memo to Mayor of San Francisco
regarding on-going discrimination, harassment,
intimidation, and retaliation inside petitioners’
worksite; (13) On or about July 27, 2010, Lam filed
Page 113

written complaint of unfair treatment rising to a level
constituting retaliation regarding poor work
evaluations by his supervisors Singh and RadcliffPowell; (14) On or about August 6, 2010, Lam filed
new “charges of discrimination, harassment,
intimidation, and retaliation” to EEOC; (15) On or
about September 2, 2010, Lam filed complaint to
respondents regarding systematic and continuous
racial discrimination, harassment, intimidation and
retaliation against APA employees in the area of
hiring and promotion; (16) On or about September 3,
2010, Lam submitted a memo to respondents’ agent
William Siffermann, regarding the investigation of his
supervisors Recinos and Ratcliff, who were alleged of
misconduct; (17) On or about October 7, 2010, Lam
filed an additional complaint to EEOC regarding on­
going retaliation and harassment; (18) On or about
October 14, 2010, petitioners Lam and Leiato and two
other APA co-workers filed the current case to U.S.
District Court; (19) On or about October 25, 2010, on
behalf of minor youths inside SF Juvenile Hall, Lam
filed a legal action in U.S. District Court CV10-04838
regarding respondents’ concealing, covering-up and
protecting those employees committing “use of
excessive force and sexual misconduct” inside
petitioners’ worksite. All previous complaints to
respondents’ proper agencies were ignored including
the Mayor and District Attorney of San Francisco;
(20) On or about November 9, 2010, Lam complained
to his supervisors Lewis and Ratcliff-Powell regarding
the worksite “soaking with smell of human feces”.
Upon being ignored by the above supervisors, Lam
assisted his on-site union rep to contact CA-OSHA and
file the complaint; (21) On or about November 30,
2010, Lam submitted a report to respondents’ proper
Page 114

agencies or agents regarding “unhealthy and potential
hazardous work environment” and retaliating against
their employees’ whom have a duty to report such
incidents as Mandatory Reporters under California
statutes; (22) On or about December 30, 2010, Lam
submitted a memo to respondents’ agents including
Siffermann, William Johnston, Magee, Houston,
Ratcliff-Powell and Doyle regarding unfair treatment
in violation of FMLA accommodation provision and
retaliating against those whom report such violations;
(23) On or about January 7, 2011, Lam joined with
other APA co-workers filing a complaint to their
employer
regarding
on-going
discrimination,
harassment, intimidation, and retaliation against
APA and other employees’ misconduct inside the
worksite; (24) On or about March 4, 2011, Lam filed
a union grievance regarding an “invalid and unsafe
work assignment” to respondents’; (25) On or about
March 10, 2011, Lam filed a SEIU grievance against
respondents regarding “compulsory sick leave” in
denying Lam the opportunity to come to work between
1/14-1/23, 2011; (26) On or about December 24, 2011,
Lam made a verbal complaint against his supervisor
Fleck regarding unfair treatment in demanding Lam
to provide a medical note for calling-in sick, even
though Lam was not on “sick leave restriction”; (27)
On or about December 30, 2011, Lam filed a complaint
to respondents’ proper agencies of the Ethics
Commission and City controller’s Office regarding his
supervisor Ratcliff-Powell in violation of the
employer’s “code of ethics”; (28) On or about February
11, 2012, Lam filed a grievance of “sick leave
restriction” on behalf of a SEIU chapter member; (29)
On or about March 30, 2012, to his employer regarding
suggestion to improve tardiness and prevent fraud;
Page 115

(30) On April, 2012, Lam filed grievance on behalf of
affected SEIU chapter member regarding of unfair
practice of “sick leave pay”; (31) On or about May 13,
2012, Lam filed a complaint to CA. Dept of Labor
regarding supervisors Recino and Ratcliff-Powell
denying earned pay for an hour to three APA
employees including Lam; (32) On or about August 6,
2012, Lam filed a complaint to his employer and
agents of a prejudiced and negative “performance
work evaluation” without merit or justification from
his supervisors Fleck and Ratcliff-Powell; (33) In
December, 2009, petitioner Leiato was scheduled to
appear at a respondents’ proper agency of the Civil
Service Commission regarding complaining about and
opposing respondents’ unlawful employment practices
via her testimony. Retaliation occurred further
because she testified, assisted in, or participated with,
in any manner, an investigation, proceeding, or
hearing! (34) On or about August 11, 2010, Leiato
filed a “good faith” bona fide report and complaint to
respondents’ agent against her supervisors RatcliffPowell and Taylor whom knowingly subjected her to
an “unsafe and unhealthy work environment” for
denying her request of “emergency medical leave” on
July 20, 2010; (35) On or about August 27, 2010,
petitioner Leiato filed a complaint of discrimination,
harassment, intimidation, and retaliation against her
supervisors Ratcliff-Powell and Taylor; (36) On or
about September 2, 2010, Leiato filed a grievance in a
timely manner against respondents including her
supervisors Ratcliff-Powell and Taylor for ignoring
her request of investigating a complaint of
discrimination,
harassment, intimidation,
and
retaliation; (37) On or about September 27, 2010,
Leiato filed a complaint with the EEOC in a timely
Page 116

manner! (38) On or about June 20, 2011, Leiato filed
an “amended complaint” to EEOC against
respondents’ supervisors for “continuous and on­
going” discrimination, harassment, intimidation, and
retaliation. Almost all the above protected activities
by petitioners were either ignored nor given a
response by respondents and their agents. However,
these are instances where adverse employment
actions were taken by respondents and their agents
against the petitioners which show the respondents
knew, or should have known, about the issues
complained of.

Page 117

Appendix G: Equal Employment Opportunity
Commission Enforcement Guidance...............

Page 118

f'

APPENDIX Q,
Equal Employment Opportunity
Commission Enforcement Guidance
1999 WL 33305874 (E.E.O.C. Guidance)
EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION ENFORCEMENT GUIDANCE
ENFORCEMENT GUIDANCE: VICARIOUS
EMPLOYER LIABILITY FOR UNLAWFUL
HARASSMENT BY SUPERVISORS
June 18, 1999
Number 915.002
1. SUBJECT:
Enforcement
Guidance:
Vicarious Employer Liability for Unlawful
Harassment by Supervisors
2. PURPOSE: This document provides
guidance regarding employer liability for
harassment by supervisors based on sex, race,
color, religion, national origin, age, disability,
or protected activity.
3. EFFECTIVE DATE: Upon receipt.
4. EXPIRATION DATE: As an exception to
EEOC Order 205.001, Appendix B, Attachment
4, § a(5), this Notice will remain in effect until
rescinded or superseded.
5. ORIGINATOR:
Title
VII/EPA/ADEA
Division, Office of Legal Counsel.
6. INSTRUCTIONS: File after Section 615 of
Volume II of the Compliance Manual.
Ida L. Castro, Chairwoman

I. Introduction
In Burlington Industries, Inc. v. Ellerth, 118 S.
Ct. 2257 (1998), and Faragher v. City of Boca Raton,
118 S. Ct. 2275 (1998), the Supreme Court made
clear that employers are subject to vicarious liability
for unlawful harassment by supervisors. The
standard of liability set forth in these decisions is
premised on two principles: 1) an employer is
responsible for the acts of its supervisors, and 2)
employers should be encouraged to prevent
harassment and employees should be encouraged to
avoid or limit the harm from harassment. In order to
accommodate these principles, the Court held that
an employer is always liable for a supervisor’s
harassment if it culminates in a tangible
employment action. However, if it does not, the
employer may be able to avoid liability or limit
damages by establishing an affirmative defense that
includes two necessary elements:
(a) the employer exercised reasonable care to
prevent and correct promptly any harassing
behavior, and
(b) the employee unreasonably failed to take
advantage of any preventive or corrective
opportunities provided by the employer or to avoid
harm otherwise.
While the Faragher and Ellerth decisions
addressed sexual harassment, the Court’s analysis
drew upon standards set forth in cases involving
harassment on other protected bases. Moreover, the
Commission has always taken the position that the

same basic standards apply to all types of prohibited
harassment.1 Thus, the standard of liability set forth
in the decisions applies to all forms of unlawful
harassment. (See section II, below.)
Harassment remains a pervasive problem in
American workplaces. The number of harassment
charges filed with the EEOC and state fair
risen
employment
practices
agencies
has
significantly in recent years. For example, the
number of sexual harassment charges has increased
from 6,883 in fiscal year 1991 to 15,618 in fiscal year
1998. The number of racial harassment charges rose
from 4,910 to 9,908 charges in the same time period.
While the anti-discrimination statutes seek to
remedy discrimination, their primary purpose is to
prevent violations. The Supreme Court, in Faragher
and Ellerth, relied on Commission guidance which
has long advised employers to take all necessary
steps to prevent harassment.2 The new affirmative
defense gives credit for such preventive efforts by an
employer, thereby “implementing] clear statutory

1 See, e.g., 29 C.F.R. § 1604.11 n. 1 (“The principles
involved here continue to apply to race, color, religion or
national origin.”); EEOC Compliance Manual Section
615.11(a) (BNA 615:0025 (“Title VII law and agency
principles will guide the determination of whether an
employer is liable for age harassment by its supervisors,
employees, or non-employees”).
2 See 1980 Guidelines at 29 C.F.R. § 1604.11(f) and
Policy Guidance on Current Issues of Sexual Harassment,
Section E, 8 FEP Manual 405:6699 (Mar. 19, 1990),
quoted in Faragher, 118 S. Ct. at 2292.

policy and complementing] the Government’s Title
VII enforcement efforts.”3
The question of liability arises only after there is
a determination that unlawful harassment occurred.
Harassment does not violate federal law unless it
involves discriminatory treatment on the basis of
race, color, sex, religion, national origin, age of 40 or
older, disability, or protected activity under the antidiscrimination statutes. Furthermore, the antidiscrimination statutes are not a “general civility
code.”4 Thus federal law does not prohibit simple
teasing, offhand comments, or isolated incidents that
are not “extremely serious.”5 Rather, the conduct
must be “so objectively offensive as to alter the
‘conditions’ of the victim’s employment.”6 The
conditions of employment are altered only if the
harassment culminated in a tangible employment
action or was sufficiently severe or pervasive to
create a hostile work environment.7 Existing

3 Faragher, 118 S. Ct. at 2292.
4 Oncale v. Sundowner Offshore Services, Inc., 118 S.
Ct. 998, 1002 (1998).
5 Faragher, 118 S.Ct. at 2283. However, when isolated
incidents that are not “extremely serious” come to the
attention of management, appropriate corrective action
should still be taken so that they do not escalate. See
Section V(C)(l)(a), below.
6 Oncale, 118 S. Ct. at 1003.
7 Some previous Commission documents classified
harassment as either “quid pro quo” or hostile
environment. However, it is now more useful to
distinguish between harassment that results in a tangible

Commission guidance on the standards for
determining whether challenged conduct rises to the
level of unlawful harassment remains in effect.
This document supersedes previous Commission
guidance on the issue of vicarious liability for
harassment by supervisors.8 The Commission’s long­
standing guidance on employer liability for
harassment by co-workers remains in effect - an
employer is liable if it knew or should have known of
the misconduct, unless it can show that it took
immediate and appropriate corrective action.9 The
standard is the same in the case of non-employees,
but the employer’s control over such individuals’
misconduct is considered.10

employment action and harassment that creates a hostile
work environment, since that dichotomy determines
whether the employer can raise the affirmative defense to
vicarious liability. Guidance on the definition of “tangible
employment action” appears in section IV(B), below.
8 The guidance in this document applies to federal
sector employers, as well as all other employers covered
by the statutes enforced by the Commission.
9 29 C.F.R. § 1604.11(d).
10 The Commission will rescind Subsection 1604.11(c)
of the 1980 Guidelines on Sexual Harassment, 29 CFR §
1604.11(c). In addition, the following Commission
guidance is no longer in effect: Subsection D of the 1990
Policy Statement on Current Issues in Sexual
Harassment(“Employer Liability for Harassment by
Supervisors”), EEOC Compliance Manual (BNA) N:405058 (3/19/90); and EEOC Compliance Manual Section
615.3(c) (BNA) 6:15-0007 - 0008.

II. The Vicarious Liability Rule Applies to
Unlawful Harassment on All Covered Bases
The rule in Ellerth and Faragher regarding
vicarious liability applies to harassment by
supervisors based on race, color, sex (whether or not
of a sexual nature11), religion, national origin,
protected activity,12 age, or disability.13 Thus,
The remaining portions of the 1980 Guidelines, the
1990 Policy Statement, and Section 615 of the Compliance
Manual remain in effect. Other Commission guidance on
harassment also remains in effect, including the
Enforcement Guidance on Harris v. Forklift Sys., Inc.,
EEOC Compliance Manual (BNA) N:4071 (3/8/94) and the
Policy Guidance on Employer Liability for Sexual
Favoritism, EEOC Compliance Manual (BNA) N:5051
(3/19/90).
11 Harassment that is targeted at an individual
because of his or her sex violates Title VII even if it does
not involve sexual comments or conduct. Thus, for
example, frequent, derogatory remarks about women
could constitute unlawful harassment even if the remarks
are not sexual in nature. See 1990 Policy Guidance on
Current Issues of Sexual Harassment, subsection C(4)
that is, harassment not
(“sex-based harassment
involving sexual activity or language - may also give rise
to Title VII liability ... if it is ‘sufficiently patterned or
pervasive’ and directed at employees because of their
sex”).
12 “Protected activity” means opposition to
discrimination or participation in proceedings covered by
the anti-discrimination statutes. Harassment based on
protected activity can constitute unlawful retaliation. See
EEOC Compliance Manual Section 8 (“Retaliation”)
(BNA) 614:001 (May 20, 1998).

employers should establish anti-harassment policies
and complaint procedures covering all forms of
unlawful harassment.14

13 For cases applying Ellerth and Faragher to
harassment on different bases, see Hafford v. Seidner, 167
F.3d 1074, 1080 (6th Cir. 1999) (religion and race);
Breeding v. Arthur J. Gallagher and Co., 164 F.3d 1151,
1158 (8th Cir. 1999) (age); Allen v. Michigan Department
of Corrections, 165 F.3d 405, 411 (6th Cir. 1999) (race);
Richmond-Hopes v. City of Cleveland, No. 97-3595, 1998
WL 808222 at *9 (6th Cir. Nov. 16, 1998) (unpublished)
(retaliation); Wright-Simmons v. City of Oklahoma City,
155 F.3d 1264, 1270 (10th Cir. 1998) (race); Gotfryd v.
Book Covers, Inc., No. 97 C 7696, 1999 WL 20925 at *5
(N.D. Ill. Jan. 7, 1999) (national origin). See also Wallin v.
Minnesota Department of Corrections, 153 F.3d 681, 687
(8th Cir. 1998) (assuming without deciding that ADA
hostile environment claims are modeled after Title VII
claims), cert, denied, 119 S. Ct. 1141 (1999).
14 The majority’s analysis in both Faragher and
Ellerth drew upon the Lability standards for harassment
on other protected bases. It is therefore clear that the
same standards apply. See Faragher, 118 S. Ct. at 2283
(in determining appropriate standard of Lability for
sexual harassment by supervisors, Court “drew upon
cases recognizing liability for discriminatory harassment
based on race and national origin”); Ellerth, 118 S. Ct. at
2268 (Court imported concept of “tangible employment
action” in race, age and national origin discrimination
cases for resolution of vicarious liability in sexual
harassment cases). See also cases cited in n.13, above.

III. Who Qualifies as a Supervisor?
A. Harasser in Supervisory Chain of Command
An employer is subject to vicarious liability for
unlawful harassment if the harassment was
committed by “a supervisor with immediate (or
successively higher) authority over the employee.”15
Thus, it is critical to determine whether the person
who engaged in unlawful harassment had
supervisory authority over the complainant.
The federal employment discrimination statutes
do not contain or define the term “supervisor.”16 The
liable
for
the
statutes
make
employers
”17
and
discriminatory acts of their “agents,
supervisors are agents of their employers. However,

15 Ellerth, 118 S. Ct. at 2270; Faragher, 118 S. Ct. at
2293.
16 Numerous statutes contain the word “supervisor,”
and some contain definitions of the term. See, e.g., 12
U.S.C. § 1813(r) (definition of “State bank supervisor” in
legislation regarding Federal Deposit Insurance
Corporation); 29 U.S.C. § 152(11) (definition of
“supervisor” in National Labor Relations Act); 42 U.S.C..
§ 8262(2) (definition of “facility energy supervisor” in
Federal Energy Initiative legislation). The definitions
vary depending on the purpose and structure of each
statute. The definition of the word “supervisor” under
other statutes does not control, and is not affected by, the
meaning of that term under the employment
discrimination statutes.
See 42 U.S.C. 2000e(a) (Title VII); 29 U.S.C. 630(b)
(ADEA); and 42 U.S.C. §12111(5)(A) (ADA) (all defining
“employer” as including any agent of the employer).

agency principles “may not be transferable in all
their particulars” to the federal employment
discrimination statutes.18 The determination of
whether an individual has sufficient authority to
qualify as a “supervisor” for purposes of vicarious
liability cannot be resolved by a purely mechanical
application of agency law.19 Rather, the purposes of
the anti-discrimination statutes and the reasoning of
the Supreme Court decisions on harassment must be
considered.
The Supreme Court, in Faragher and Ellerth,
reasoned that vicarious liability for supervisor
harassment is appropriate because supervisors are
aided in such misconduct by the authority that the
employers delegated to them.20 Therefore, that
authority must be of a sufficient magnitude so as to
assist the harasser explicitly or implicitly in carrying
out the harassment. The determination as to
whether a harasser had such authority is based on
18 Meritor Savings Bank, FSB v. Vinson, All U.S. 57,
72 (1986); Faragher, 118 S. Ct. at 2290 n.3; Ellerth, 118 S.
Ct. at 2266.
19 See Faragher, 118 S. Ct. at 2288 (analysis of
vicarious liability “calls not for a mechanical application
of indefinite and malleable factors set forth in the
Restatement ... but rather an inquiry into the reasons
that would support a conclusion that harassing behavior
ought to be held within the scope of a supervisor’s
employment ... ”) and at 2290 n.3 (agency concepts must
be adapted to the practical objectives of the antidiscrimination statutes).
20 Faragher, 118 S. Ct. at 2290; Ellerth, 118 S. Ct. at
2269.

his or her job function rather than job title (e.g.,
“team leader”) and must be based on the specific
facts.
An individual
“supervisor” if:

qualifies

as

an

employee’s

a. the individual has authority to undertake or
recommend tangible employment decisions affecting
the employee; or
b. the individual has authority to direct the
employee’s daily work activities.
1. Authority to Undertake or Recommend
Tangible Employment Actions
An individual qualifies as an employee’s
“supervisor” if he or she is authorized to undertake
tangible employment decisions affecting the
employee. “Tangible employment decisions” are
decisions that significantly change another
employee’s employment status. (For a detailed
explanation of what constitutes a tangible
employment action, see subsection IV(B), below.)
Such actions include, but are not limited to, hiring,
firing, promoting, demoting, and reassigning the
employee. As the Supreme Court stated,”[tjangible
employment actions fall within the special province
of the supervisor.”21
An individual whose job responsibilities include
the authority to recommend tangible job decisions
affecting an employee qualifies as his or her
supervisor even if the individual does not have the

21 Ellerth, 118 S. Ct. at 2269.

final say. As the Supreme Court recognized in
Ellerth, a tangible employment decision “may be
subject to review by higher level supervisors.”22 As
long as the individual’s recommendation is given
substantial weight by the final decisionmaker(s),
that individual meets the definition of supervisor.
2. Authority to Direct Employee’s Daily Work
Activities
An individual who is authorized to direct another
employee’s day-to-day work activities qualifies as his
or her supervisor even if that individual does not
have the authority to undertake or recommend
tangible job decisions. Such an individual’s ability to
commit harassment is enhanced by his or her
authority to increase the employee’s workload or
assign undesirable tasks, and hence it is appropriate
to consider such a person a “supervisor” when
determining whether the employer is vicariously
liable.
In Faragher, one of the harassers was authorized
to hire, supervise, counsel, and discipline lifeguards,
while the other harasser was responsible for making
the lifeguards’ daily work assignments and
supervising their work and fitness training.23 There
was no question that the Court viewed them both as

22 Ellerth, 118 S. Ct. at 2269.
23 Faragher, 118 S. Ct. at 2280. For a more detailed
discussion of the harassers’ job responsibilities, see
Faragher, 864 F. Supp. 1552, 1563 (S.D. Fla. 1994).

“supervisors,” even though one of them apparentlylacked authority regarding tangible job decisions.24
An individual who is temporarily authorized to
direct another employee’s daily work activities
qualifies as his or her “supervisor” during that time
period. Accordingly, the employer would be subject to
vicarious liability if that individual commits
unlawful harassment of a subordinate while serving
as his or her supervisor.
On the other hand, someone who merely relays
other
officials’
instructions
regarding
work
assignments and reports back to those officials does
not have true supervisory authority. Furthermore,
someone who directs only a limited number of tasks
or assignments would not qualify as a “supervisor.”
For example, an individual whose delegated
authority is confined to coordinating a work project
of limited scope is not a “supervisor.”
B. Harasser Outside Supervisory Chain of
Command
In some circumstances, an employer may be
subject to vicarious liability for harassment by a
24 See Grozdanich v. Leisure Hills Health Center, 25 F.
Supp.2d 953, 973 (D. Minn. 1998) (“it is evident that the
Supreme Court views the term “supervisor’ as more
expansive than as merely including those employees
whose opinions are dispositive on hiring, firing, and
promotion”; thus, “charge nurse” who had authority to
control plaintiffs daily activities and recommend
discipline qualified as “supervisor” and therefore rendered
employer vicariously liable under Title VII for his
harassment of plaintiff, subject to affirmative defense).

i

supervisor who does not have actual authority over
the employee. Such a result is appropriate if the
employee reasonably believed that the harasser had
such power.25 The employee might have such a belief
because, for example, the chains of command are
unclear. Alternatively, the employee might
reasonably believe that a harasser with broad
delegated powers has the ability to significantly
influence employment decisions affecting him or her
even if the harasser is outside the employee’s chain
of command.
If the harasser had no actual supervisory power
over the employee, and the employee did not
reasonably believe that the harasser had such
authority, then the standard of liability for co-worker
harassment applies.
*****

26 See Ellerth, 118 S. Ct. at 2268 (“If, in the unusual
case, it is alleged there is a false impression that the actor
was a supervisor, when he in fact was not, the victim’s
mistaken conclusion must be a reasonable one.”);
Llampallas v. Mini-Circuit Lab, Inc., 163 F.3d 1236, 1247
(11th Cir. 1998) (“Although the employer may argue that
the employee had no actual authority to take the
employment action against the plaintiff, apparent
authority serves just as well to impute liability to the
employer for the employee’s action.”).

J

